<html>
<title> - PROGRESS SINCE SEPTEMBER 11TH: PROTECTING PUBLIC HEALTH AND SAFETY AGAINST TERRORIST ATTACKS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  PROGRESS SINCE SEPTEMBER 11TH: PROTECTING PUBLIC HEALTH AND SAFETY 
                       AGAINST TERRORIST ATTACKS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 28, 2006

                               __________

                           Serial No. 109-153

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-531                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
             Kristine Fiorentino, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 28, 2006................................     1
Statement of:
    Bascetta, Cynthia A., Director, Health Care, Government 
      Accountability Office; Ronaldo Vega, architect, city of New 
      York, Department of Design and Construction; Marvin Bethea, 
      paramedic, New York City; Stephen M. Levin, M.D., co-
      director, World Trade Center Worker and Volunteer Medical 
      Screening Program, medical director, Mount Sinai Center for 
      Occupational and Environmental Medicine, New York, NY; and 
      Kerry J. Kelly, M.D. chief medical officer, Bureau of 
      Health Services, FDNY, and co-director, FDNY-WTC Medical 
      Program, New York, NY......................................    11
        Bascetta, Cynthia A......................................    11
        Bethea, Marvin...........................................    54
        Kelly, Kerry J...........................................    74
        Levin, Stephen M.........................................    59
        Vega, Ronaldo............................................    47
    de Hernandez, Micki Siegel, Communications Workers of 
      America, District 1, New York City; Lee Clarke, American 
      Federation of State County and Municipal Employees, 
      District Council 37, New York City; John Romanowich, New 
      York City Department of Design and Construction; Michael 
      Kenny, Local 375, District Council 37, New York City; and 
      Charles Kaczorowski, Local 375, District Council 37, New 
      York City..................................................   159
        Clarke, Lee..............................................   160
        de Hernandez, Micki Siegel...............................   159
        Kaczorowski, Charles.....................................   163
        Kenny, Michael...........................................   162
        Romanowich, John.........................................   161
    Howard, John, M.D., M.P.H., Director, National Institute for 
      Occupational Safety and Health [NIOSH], Centers for Disease 
      Control and Prevention, U.S. Department of Health and Human 
      Services...................................................   133
Letters, statements, etc., submitted for the record by:
    Bascetta, Cynthia A., Director, Health Care, Government 
      Accountability Office, prepared statement of...............    14
    Bethea, Marvin, paramedic, New York City, prepared statement 
      of.........................................................    56
    Howard, John, M.D., M.P.H., Director, National Institute for 
      Occupational Safety and Health [NIOSH], Centers for Disease 
      Control and Prevention, U.S. Department of Health and Human 
      Services, prepared statement of............................   136
    Kelly, Kerry J., M.D. chief medical officer, Bureau of Health 
      Services, FDNY, and co-director, FDNY-WTC Medical Program, 
      New York, NY, prepared statement of........................    77
    Levin, Stephen M., M.D., co-director, World Trade Center 
      Worker and Volunteer Medical Screening Program, medical 
      director, Mount Sinai Center for Occupational and 
      Environmental Medicine, New York, NY, prepared statement of    63
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, information concerning findings and 
      treatment for high levels of mercury and lead toxicity.....   112
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Vega, Ronaldo, architect, city of New York, Department of 
      Design and Construction, prepared statement of.............    49


  PROGRESS SINCE September 11th: PROTECTING PUBLIC HEALTH AND SAFETY 
                       AGAINST TERRORIST ATTACKS

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 2154, Rayburn House Office Building, Hon. Chris Shays 
(chairman of the subcommittee) presiding.
    Present: Representatives Shays, Fossella, Maloney, and Van 
Hollen.
    Staff present: Lawrence Halloran, staff director and 
counsel; Kristine Fiorentino, professional staff member; Robert 
A. Briggs, clerk, and Marc LaRoche, intern; Andrew Su, minority 
professional staff member; and Jean Gosa, minority assistant 
clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled ``Progress Since September 11th: 
Protecting Public Health and Safety Against Terrorist Attacks'' 
is called to order.
    On September 11, 2001, the World Trade Center site became 
the epicenter of seismic events still generating aftershocks 
across our entire Nation.
    We convene in remembrance of those lost and on behalf of 
those still suffering and dying as a result of the toxic 
terrors unleashed that day.
    The unfinished work of protecting public health in this 
dangerous era came into painful focus again last year when 
Hurricane Katrina washed away complacent assumptions about 
national readiness to deal with large-scale disasters.
    So we also come together to commemorate our fellow citizens 
who died in the storm and to ask, what more must be done to 
care for those who live and work in the past of cataclysmic 
devastation.
    An 18th century philosopher reached the sad conclusion, 
``We learn from history only that we do not learn from history. 
We prefer to forget.''
    We want to get on with our lives as soon as possible to get 
back to where we were before disaster struck.
    But many suffering long-term effects from toxic exposures 
at Ground Zero cannot forget, nor can they be forgotten.
    Recent deaths and diagnosis of debilitating conditions 
among September 11th first responders serve as painful 
reminders of the enduring duty to acknowledge the wounded, ease 
their suffering, and learn the lessons their hard history 
teach.
    When the subcommittee convened in New York City in 2003, we 
heard testimony about a disjointed patchwork of Federal, State, 
and local health programs meant to address unique September 
11th health impacts.
    First responders and Federal employees who answered the 
call were falling into bureaucratic crevices between those 
special programs and regular health care and workers' 
compensation systems ill equipped to diagnose, treat, or 
compensate the delayed casualties of the September 11th 
attacks.
    Today, it appears the public health approach to lingering 
environmental hazards remains unfocused and halting.
    The unquestionable need for long-term monitoring has been 
met with only short-term commitments.
    Screening and monitoring results have not been translated 
into timely protocols that could be used by a broader universe 
of treating physicians.
    Valuable data sets, compiled by competing programs, may 
atrophy as the money and vigilance to a September 11th health 
research wane.
    This unhappy history warns we are not yet prepared to do 
essential public health assessments after mass casualty events, 
natural or man-made.
    More recently, the lack of any baseline measurement 
protocols in the wake of Hurricane Katrina suggests the 
response to the next disaster may be yet another ruddlerless, 
ad hoc scramble.
    Last week, the White House Report on Hurricane Katrina 
recommended Federal agencies be prepared ``to quickly gather 
environmental data and to provide the public and emergency 
responders the most accurate information available to determine 
whether it is safe to operate in a disaster environment or to 
return after evacuation.''
    Those charged with implementing that recommendation should 
study the history of the September 11th programs as a 
cautionary guide to lessons still unlearned and mistakes that 
should not be repeated.
    We asked our witnesses to discuss how the Federal 
investment in the World Trade Center Health Program has been 
used, how those efforts can be better coordinated and more 
sharply focused.
    We asked them to tell us what we have learned for good or 
ill about responding to the health effects that sustain toxic 
terrorism.
    We value their perspectives. We appreciate their expertise, 
and we look forward to their testimony.
    With that, the Chair now recognizes Mrs. Maloney, who has 
been leading the charge in this area, with Mr. Vito Fossella, 
who I will also ask at this moment for unanimous consent that 
he be allowed to participate, only if he joins us a little 
closer. Come on up here, Vito.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T8531.001
    
    [GRAPHIC] [TIFF OMITTED] T8531.002
    
    Mrs. Maloney. Well, thank you, Mr. Chairman, and I really 
thank you Chairman Shays for holding this hearing. This is the 
third of its kind by the subcommittee, and, in fact, this 
subcommittee is the only Federal Committee to ever hold 
hearings on the health impact of September 11th, which is an 
astonishing fact when you consider the enormity of this 
problem.
    I in particular want to welcome all of the panelists, but 
two of my constituents are here--Mr. Ron Vega, Mr. Marvin 
Bethea. And I also would like to recognize Ms. Lee Clark, 
another constituent from D.C. 37 with Workers' Comp, Micki de 
Hernandez from CWA, who has been dedicated to this issue, and 
Barbara Coufel from AFSCME. They have all worked selflessly on 
this issue.
    We are joined today by other workers from Ground Zero. We 
could not have everyone as panelists, but their constant 
attention, their many visits to Washington, has contributed 
greatly to the success that Vito Fossella and the chairman and 
myself are so proud to learn on Monday that the administration 
has appointed a health czar, a person who will be totally in 
charge in coordinating response.
    I also must mention that the Mayor's Office is here, who 
has been a partner in this effort in securing a health 
professional, and also the restoration, which Vito and many 
others worked so hard on to restore the $125 million to 
Workers' Compensation and to help the injured workers.
    We have thousands of people that are sick and Vito has them 
coming to his office. I have them to mine, and Chris has his. 
Many people from Connecticut as well as across this country 
rushed to Ground Zero, and many of them have not been treated. 
They have not been monitored, and we hope to change that.
    At the last hearing, I asked every witness if they could 
name anyone in the Federal Government to whom they could turn 
to for help. Was there anyone that they could go to to help 
them with their health needs? Everyone called them a hero or a 
heroine, but where were they to go when they were sick? And 
absolutely no one could give me a name.
    Well, today, we finally have a name--Dr. John Howard, the 
Director of NIOSH. He is a witness on our second panel. He is a 
seasoned health professional, and I know, Dr. Howard, that you 
were just given this responsibility yesterday, but along with 
Vito and Chris, I look very much forward to working with you, 
because we have a great deal of work to do to help the men and 
women who are heroes and heroines, such as Mrs. Bascetta who is 
here today who was literally buried alive. Many others were 
buried alive, dug their way out. They are sick now. They went 
back to the mound. They worked to help others, and we need to 
be there to help them now.
    One of the first things I want to deal with, which I think 
is incredibly important, is the medical monitoring programs. 
One of our witnesses, Dr. Levin, has been head of the Health 
Consortium and has worked on this.
    But these programs have documented that thousands of people 
are still sick. They are sick from their exposure to a virtual 
cocktail of poisonous asbestos, lead, mercury, powdered glass, 
pulverized cement, and other carcinogens at Ground Zero, and 
that many of these individuals have a lack of access to 
sufficient medical care or treatment.
    The World Trade Center Monitoring Program alone has found 
that roughly half of the 16,000 people they have screened have 
a medical condition resulting from September 11th. Some have 
called a condition called the ``World Trade Center cough'' that 
has emerged from this impact of glass in the lungs.
    What is worse is that we are now getting news that several 
responders may have died as the result of their service at 
Ground Zero years after the attack. And it has been 4\1/2\ 
years. We are coming up on the fifth anniversary, but since 
June of this year, we have mourned the loss of three heroes of 
September 11th--EMTs Felix Hernandez, at 31; Timothy Keller, at 
41; and NYPD Detective James Cedragu, 34.
    These men were all in the prime of their life. Their loved 
ones told me they would be alive today but for September 11th.
    Tim Keller's son says the night he died he was coughing up 
black phlegm, and many tell me they could rub their loved ones 
arms and little particles of glass would come out.
    The frustrating thing to me is that even with this 
information, eligibility for medical monitoring is all over the 
map, and it is more dependent on who you are, what hat you 
wore, what department you belonged in rather than what you were 
exposed to.
    And with this appointment of a medical chief in charge, I 
would hope that the debate moves to what you were exposed to as 
opposed to the various medical monitoring patchwork that has 
been created across the region.
    If you are a Federal employee, you are eligible now for a 
one-time screening from a program that has been shut down more 
than it has been operating. The GAO report said that of the 
approximately 10,000 Federal employees and we are talking FBI, 
CIA, IRS, FEMA, SEC--that were exposed, when they found--they 
only monitored or screened 400 of them, and they closed down 
the program because they didn't know what to do with them, 
because people were sick and there was no treatment program.
    I have been told that there will be no followup exams for 
the Federal program that is starting up now, and that this 
program is a screening program, not a monitoring program.
    If you are a former Federal employee, as of today, you are 
not eligible for anything. If you are a New York State 
employee, you used to be eligible for a one-time screening. But 
that program has since shut down.
    And our point today is that illnesses are not shutting 
down, and we need to have the scientific instructions sent out 
to doctors. We have heard stories of people who are coughing 
up--and very sick--and they have glass in their lungs, and they 
are being treated for asthma. They have World Trade Center 
cough.
    The CDC has sent protocols to every single doctor in this 
country for the SARS cough. Why aren't we sending and 
developing protocol for the World Trade Center cough?
    That needs to be done.
    Now that you are eligible as New York State and Federal 
employee to be part of a medical monitoring program, but your 
first exam is useless, because the New York State Screening 
Program failed to coordinate their exam with the other existing 
monitoring programs.
    If you were a construction worker, a firefighter, a police 
officer, or a volunteer and worked at Ground Zero, you are 
eligible to be part of medical monitoring programs that we had 
to fight the administration to create.
    If you are an area resident and breathed in this debris, 
you are not eligible for any federally funded medical screening 
or monitoring program.
    The same is true for area workers, many of whom were back 
on the job the next day, and school children.
    The only thing that everyone is eligible for is the World 
Trade Center Registry. But let us be clear: Beyond the privacy 
concerns that have been raised by a number of local unions, the 
Registry has never conducted a single medical examination.
    All it has ever done is conduct phone surveys, requiring 
individuals to self-report their health status.
    I would like to hear from our witnesses any experiences 
that they have had with this Registry. Specifically, I would 
like to hear from the doctors on whether it has been of any use 
to them whatsoever, and it is amazing to me that the Federal 
Government has found it necessary to include area residents--
workers, school children, and others--in a health registry, but 
are prohibiting the same from existing medical monitoring 
programs, even after illnesses and injuries are reported.
    As we are working out the coordination of monitoring, we 
also must work on providing actual medical treatment to those 
who are sick, but lack access to sufficient medical care or 
treatment.
    It is absolutely wrong, and I would say immoral, to find a 
medical condition and then do absolutely nothing about it. We 
have made progress in this area and are on the verge of 
providing the first Federal funding for treatment. That is 
amazing. It has been 4\1/2\ years, and we are just now getting 
Federal funding for treatment.
    But this only happened after a prolonged battle with the 
administration. There is no way that the funds appropriated 
will meet all of the unmet needs of the September 11th 
responders. The funding that I am talking about is the 
restoration, which my colleague, Vito, worked so hard on with 
the New York delegation to restore $125 million rescission of 
the September 11th funding, and I must mention the workers who 
came up repeatedly to meet with the leaders in Congress to make 
them aware that this money was needed for their treatment.
    Of this $125 million, $75 million will be used for existing 
monitoring programs and, for the first time, provide funding 
for treatment. This is indeed an important step forward.
    We have here today two of the people who were great 
advocates in this fight. I would say three. Mrs. Bascetta, Mr. 
Vega, and Mr. Bethea.
    Without their work, and the work of other September 11th 
responders, this funding would have never been returned to New 
York.
    Now that it has been returned, it is past time for the 
Federal Government to come up with a comprehensive plan, not 
just on how to spend this money, but develop a plan that looks 
to deal with the unmet needs of everyone exposed to the toxins 
at Ground Zero.
    To this end, I would like to hear from the doctors from the 
monitoring programs about the unmet needs of their patients. 
Maybe I have this World Trade Center cough, too.
    I would be specifically interested in hearing what you 
think it will take to finally take care of these men and women. 
Too much time has passed. The time to act is now. As the 
September 11th responders will tell you, their life very well 
depends on it. Thank you.
    Mr. Shays. I thank the gentlelady. At this time, Mr. Van 
Hollen has said that we could go to our invited member, Mr. 
Fossella for a statement.
    Mr. Fossella. Well, thank you, Mrs. Maloney, and thank you, 
Chairman Shays, for holding this I think is an important 
hearing, and, of course, to my colleague, Carol Maloney. She 
has been very, very helpful and we are doing what is right for 
the people who responded on September 11th.
    As been mentioned, too many of the people I represent and 
others are living with severe health problems due to September 
11th and will continue to do so for years to come. I commend 
you, Mr. Chairman, and others for the dedication to this topic.
    We know now that when the terrorists flew two airplanes 
into the Twin Towers on September 11, 2001, New York's police 
officers, firefighters, EMTs, and so many others put their own 
lives aside in an heroic attempt to save others. Many did not 
return home. In the attacks immediate aftermath, countless 
others flocked to Ground Zero to help with recovery efforts. 
They spent several days and hours working the pile of wreckage, 
holding on to the hope of finding survivors. They worked 
tirelessly, driven by the somber reality that Ground Zero 
needed to be cleaned up quickly to bring peace for those who 
lost loved ones and to help lower Manhattan and America rise 
again.
    Many first responders and volunteers hoped the pain would 
eventually pass, but many continue suffering today. It has been 
revealed that tens of thousands of first responders, Federal 
employees, and lower Manhattan residents and workers are 
suffering from health problems likely caused by exposure to 
toxins at or near the World Trade Center site. They inhaled 
asbestos, lead, mercury, powdered glass, and other carcinogens 
stagnating in the air.
    According to a federally funded World Trade Center Medical 
Screening Program, approximately half of the 16,000 September 
11th responders that they have screened continued to need 
physical and or mental health treatment. In many cases, they 
need further testing as well.
    Our New York City Fire Department I believe we will hear 
shortly study reported similar findings: Thousands of other 
responders eligible for medical screening are still left in 
need.
    After a long fight, our Federal Government is now on its 
way toward providing a better response to this problem. This 
past year has been mentioned. My colleague, Congresswoman 
Maloney, and I came together with our other New York colleagues 
and successfully reversed the rescission of $125 million for 
September 11th first responders and workers.
    We were also successful at freeing up this funding to be 
used for treatment for the first time ever. Thanks to these 
victories, many will continue receiving the treatment they need 
to live more normal lives. Those not currently served can also 
now live with the hope there is help out there, and America has 
not forgotten their sacrifice.
    Unfortunately, tragedy has come in the wake of these 
successes. We have heard in the past 9 months three of these 
responders lost their lives from what are believed to be 
sicknesses incurred during the heroic rescue and recovery 
efforts. Their names have been mentioned, but bear repeating--
the EMTs Timothy Keller, Felix Hernandez, and Police Detective 
James Cedragu, now counted among the victims of September 11th.
    Thousands of others are living with persistent health 
problems believed to be associated with their September 11th 
response. One medic I talked to is no longer able to work due 
to severe respiratory illnesses and vision problems doctors 
feel all relate to his efforts on September 11th.
    Another individual suffers from respiratory problems caused 
by severe internal chemical burns from toxins inhaled at Ground 
Zero. One of the witnesses today, Mr. Vega, will testify about 
high levels of mercury and arsenic in his blood. These toxins 
will affect his liver and brain cells. He has also been 
diagnosed with restrictive lung diseases and post-traumatic 
stress disorder associated with September 11th.
    Other common conditions are heart disease, bronchitis, and 
emphysema.
    Many of our September 11th responders are facing dire 
circumstances. Some have tragically passed away. However, today 
offers others like him will not suffer a similar fate and those 
living with September 11th health problems as they will in the 
future.
    After requests from Congresswoman Maloney and I, I am very 
pleased to, as she has mentioned Health & Human Services 
Secretary Michael Leavitt, who we met with earlier today, with 
Mayor Blumberg, has been a strong advocate in this cause, has 
chosen, as been mentioned, Dr. John Howard as the Federal 
Government's September 11th Health Coordinator. Dr. Howard, we 
look forward to your efforts in helping those in need.
    I welcome Dr. Howard here again and look forward to working 
with all of us and many--I can't bear repeating enough for the 
last 4\1/2\ years, there have been many on the ground back in 
New York who have dedicated their lives to helping those in 
need--many of the not-for-profit, fundraisers, etc., in the 
health community, and one person in particular I would like to 
acknowledge is Dr. Kelly, most important a Staten Island 
resident, who is here today, a Grimes Hill resident and a 
graduate of Notre Dame Academy on Grimes Hill. Doctor, thank 
you for what you have been doing for these last several years 
especially.
    With that, Mr. Chairman, I want to thank you and let us 
hope that not just the witnesses here, but, as we know, there 
are thousands of people who are not here. They need to know one 
thing: that September 11th may have been a very bad day and a 
tragic one in this country's history, and there are many people 
who responded heroically, and they need to know that this 
Congress and this country will never forget their sacrifice and 
will stand by them. And I think this hearing helps to 
underscore that commitment.
    Thank you very much.
    Mr. Shays. I thank the gentleman. Mr. Van Hollen. Thank you 
for your patience.
    Mr. Van Hollen. Well, no, thank you, Mr. Chairman. Thank 
you for holding a hearing on this very important issue, and I 
commend my colleagues from New York, Mrs. Maloney and Mr. 
Fossella, for their leadership in this area. And I will be 
brief in my remarks.
    As you said, Mr. Chairman, in your opening remarks, we have 
an obligation as a country to learn from tragedies that strike 
us as a Nation. On September 11th, we had a tragedy that struck 
all Americans, but, of course, particularly people in New York 
City, in the Washington area, and, of course, on the plane that 
crashed in Pennsylvania.
    And we have had a lot of opportunities as a country to 
learn from those disasters and try to determine what we can do 
to prevent and respond to other disasters. We saw in the case 
of Hurricane Katrina that unfortunately the Federal Government 
did not learn its lessons. We were not adequately prepared, and 
there is much unfinished business we can do to prevent future 
tragedies, whether they are man-made or whether they are from 
natural causes, and to respond and be prepared to respond to 
those tragedies.
    But in the process of learning lessons from the tragedy of 
September 11th and lessons from Katrina, it is important that 
we not forget the people who were victims in those tragedies 
and those who put their lives on the line, and nevertheless 
continue to suffer from the long-term health effects of 
exposure to toxics and other environmental conditions.
    And so I hope as we learn the lessons from those tragedies 
to avoid future tragedies and decide how to best respond to 
them, we do not forget those heroes who were part of 
responding, and that is what today is all about is trying to 
find a way to make sure that those people who put their lives 
on the line that they have their health care needs addressed. 
And I thank you, Mr. Chairman, again my colleagues from New 
York for your work in this area.
    Mr. Shays. I thank the gentleman. Before I recognize the 
witnesses, I ask unanimous consent that all members of the 
subcommittee be permitted and those have been given unanimous 
consent to participate be permitted to place an opening 
statement in the record, and the record will remain open for 3 
days for that purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record. And 
without objection, so ordered.
    Recognizing our panel, we have Ms. Cynthia Bascetta, 
Director of Health Care, Government Accountability Office; Mr. 
Ronald Vega, architect, city of New York, Department of Design 
and Construction; Mr. Marvin Bethea, New York City paramedic; 
Dr. Stephen M. Levin, co-director of the World Trade Center 
Work and Volunteer Medical Screening Program, medical director 
of the Mount Sinai Center for Occupational and Environmental 
Medicine; and Dr. Kerry J. Kelly, Fire Department of New York, 
chief medical officer, Bureau of Health Services co-director of 
the Fire Department of New York WTC Medical Program--Fire 
Department of New York? Yes. OK. You get the Fire Department of 
New York in there a lot.
    Please, if you would stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative, and two others who may provide testimony 
will provide that to you, Mr. Transcriber, if they testify. But 
they have been sworn in.
    You may begin.

   STATEMENTS OF CYNTHIA A. BASCETTA, DIRECTOR, HEALTH CARE, 
GOVERNMENT ACCOUNTABILITY OFFICE; RONALDO VEGA, ARCHITECT, CITY 
  OF NEW YORK, DEPARTMENT OF DESIGN AND CONSTRUCTION; MARVIN 
 BETHEA, PARAMEDIC, NEW YORK CITY; STEPHEN M. LEVIN, M.D., CO-
   DIRECTOR, WORLD TRADE CENTER WORKER AND VOLUNTEER MEDICAL 
  SCREENING PROGRAM, MEDICAL DIRECTOR, MOUNT SINAI CENTER FOR 
  OCCUPATIONAL AND ENVIRONMENTAL MEDICINE, NEW YORK, NY; AND 
 KERRY J. KELLY, M.D. CHIEF MEDICAL OFFICER, BUREAU OF HEALTH 
SERVICES, FDNY, AND CO-DIRECTOR, FDNY-WTC MEDICAL PROGRAM, NEW 
                            YORK, NY

                 STATEMENT OF CYNTHIA BASCETTA

    Ms. Bascetta. Thank you, Mr. Chairman and members of the 
subcommittee.
    I am pleased to be here today to update you on the progress 
of programs established to monitor adverse health effects in 
the aftermath of the World Trade Center attack.
    As you know, up to 400,000 people living, working, and 
attending school in the vicinity were affected, and thousands 
of responders were exposed to many physical and environmental 
toxins as they took part in rescue, recovery, and clean up 
activities.
    The magnitude and unprecedented nature of this event also 
caused significant psychological trauma for responders and many 
other people.
    More than 4 years later, the long-term effects on physical 
and mental health are still of great concern.
    In my remarks today, I will first discuss the four 
federally funded programs that are implemented by State and 
local government agencies or private organizations to serve 
State and local workers as well as the general population.
    Then I will share our findings about the program 
established to monitor the health of Federal workers who 
responded to the disaster in an official capacity.
    For State and local workers, the New York City Fire 
Department's program and the Worker and Volunteer Program, have 
provided medical examinations to more than 15,000 and 14,000 
people, respectively, and are also tracking their health over 
time. Both programs are accepting new enrollees for initial 
screening, have begun to conduct followup examinations, and 
provide referrals for participants who require treatment.
    A third program, the New York State Responder Screening 
Program, offered one-time examinations to State employees, 
including the National Guard.
    After screening about 1,700 of the estimated 9,800 stated 
responders, this program stopped in November 2003, in part 
because the number of responders requesting examinations was 
dwindling and no followup was planned.
    State responders were allowed to participate in the Worker 
and Volunteer Program beginning in February 2004.
    The fourth program, the World Trade Center Registry, is 
designed for research on long-term health effects through 2023, 
and has collected health information through interviews with 
over 71,000 responders and others exposed to the hazards caused 
by the collapse of the Towers.
    Officials from the Registry, as well as the other programs 
doing long-term monitoring, expressed concerns that the 
duration of Federal funding arrangements may be too short to 
identify all health effects that may develop over time.
    For Federal workers who are not eligible for other 
monitoring programs, a few hundred were screened by Federal 
agencies within the Army and the Justice Department. But for 
the vast majority, HHS' program lagged behind by about a year, 
accomplished little, and was dormant between March 2004 and 
December 2005.
    Of the estimated 10,000 Federal workers who were sent by 
their agencies to respond, only about 500 have received 
screening examinations.
    HHS officials told us that three operational issues 
contributed to their decision to suspend the program. First, 
they could not inform all eligible Federal responders because 
they didn't have a comprehensive list of their names.
    HHS is now spending about $500,000 to develop the list and 
to recruit enrollees.
    Second, officials reported that clinicians were concerned 
about providing screening examinations to the many participants 
who need additional testing and followup care, especially for 
respiratory and mental health problems.
    This issue was resolved in July 2005 by a new interagency 
agreement that provided directions for how to handle further 
diagnostic tests, treatment, or referral. Five months later, 
HHS resumed the program and decided how to resolve its third 
issue, dealing with its authority to provide examinations for 
former Federal employees.
    Mr. Chairman, we believe that Federal, State, and local 
government officials who are responsible for planning and 
implementing health monitoring in the aftermath of any disaster 
could improve their effectiveness by applying the lessons 
learned from the World Trade Center experience.
    For example, officials emphasized how time is of the 
essence in identifying and contacting affected people, because 
the passage of time erodes their memories and reduces the 
likelihood of collecting accurate information.
    Using the Rapid Response Registry could reduce delays in 
collecting time-sensitive data.
    Another lesson is the value of centrally coordinated 
planning, which could improve the underlying data base for 
research and eliminate the need for separate and sometimes 
incompatible programs for different populations.
    Finally, officials stress that it will be time consuming to 
identify providers available to treat participants, especially 
those without health insurance.
    This may be especially important for mental health care 
needs, which are often less obvious initially, but which take 
on greater significance over time.
    This concludes my remarks, and I would be happy to answer 
any questions that you or the other subcommittee members might 
have.
    [The prepared statement of Ms. Bascetta follows:]

    [GRAPHIC] [TIFF OMITTED] T8531.003
    
    [GRAPHIC] [TIFF OMITTED] T8531.004
    
    [GRAPHIC] [TIFF OMITTED] T8531.005
    
    [GRAPHIC] [TIFF OMITTED] T8531.006
    
    [GRAPHIC] [TIFF OMITTED] T8531.007
    
    [GRAPHIC] [TIFF OMITTED] T8531.008
    
    [GRAPHIC] [TIFF OMITTED] T8531.009
    
    [GRAPHIC] [TIFF OMITTED] T8531.010
    
    [GRAPHIC] [TIFF OMITTED] T8531.011
    
    [GRAPHIC] [TIFF OMITTED] T8531.012
    
    [GRAPHIC] [TIFF OMITTED] T8531.013
    
    [GRAPHIC] [TIFF OMITTED] T8531.014
    
    [GRAPHIC] [TIFF OMITTED] T8531.015
    
    [GRAPHIC] [TIFF OMITTED] T8531.016
    
    [GRAPHIC] [TIFF OMITTED] T8531.017
    
    [GRAPHIC] [TIFF OMITTED] T8531.018
    
    [GRAPHIC] [TIFF OMITTED] T8531.019
    
    [GRAPHIC] [TIFF OMITTED] T8531.020
    
    [GRAPHIC] [TIFF OMITTED] T8531.021
    
    [GRAPHIC] [TIFF OMITTED] T8531.022
    
    [GRAPHIC] [TIFF OMITTED] T8531.023
    
    [GRAPHIC] [TIFF OMITTED] T8531.024
    
    [GRAPHIC] [TIFF OMITTED] T8531.025
    
    [GRAPHIC] [TIFF OMITTED] T8531.026
    
    [GRAPHIC] [TIFF OMITTED] T8531.027
    
    [GRAPHIC] [TIFF OMITTED] T8531.028
    
    [GRAPHIC] [TIFF OMITTED] T8531.029
    
    [GRAPHIC] [TIFF OMITTED] T8531.030
    
    [GRAPHIC] [TIFF OMITTED] T8531.031
    
    [GRAPHIC] [TIFF OMITTED] T8531.032
    
    [GRAPHIC] [TIFF OMITTED] T8531.033
    
    [GRAPHIC] [TIFF OMITTED] T8531.034
    
    [GRAPHIC] [TIFF OMITTED] T8531.035
    
    Mr. Shays. Thank you very much. Mr. Vega.

                   STATEMENT OF RONALDO VEGA

    Mr. Vega. Good afternoon, Chairman Shays, and members of 
the subcommittee.
    I wish to thank you, and especially thank my Congresswoman, 
Carolyn Maloney, for inviting me here today.
    My name is Ronaldo Vega. I am a registered architect, 
employed by the city of New York, Department of Design and 
Construction [DDC].
    DDC was the city agency tasked by the Mayor to manage the 
rescue and recovery effort at Ground Zero. I am also a union 
official of AFSCME D.C. 37's local 375, the Civil Service 
Technical Guild. Our members have served in the rescue-recovery 
at Ground Zero since day one, and continue, even today, at the 
Medical Examiner's office.
    Along with everyone else who served at Ground Zero, my 
story is but one of thousands.
    Four and a half years ago, all the world was right. 
American families went about their business in blissful 
ignorance. By this time on September 11th, the unimaginable 
death and destruction had already taken place. Our way of life 
changed forever.
    The general population became paralyzed by grief and 
horror, and yet our response was immediate, overwhelming, and 
fearless. We went in blindly, first to save whomever we could, 
and then to recover as many remains as there were to be 
recovered.
    A byproduct of that search was the clean up of the site. 
The two operations went hand in hand. They were inseparable. 
Human remains and debris had become one. We accomplished both 
efforts in 9 months, but we left knowing our job was 
unfinished.
    You have no idea how sensitive we were about the lives that 
were lost that day. We saw Ground Zero as a mass grave where a 
senseless massacre took place. We did all we could to bring 
them all home, but the fact that we failed weighs heavily on 
our minds still today.
    Needless to say, every day offered a new traumatic 
experience. For many, just 1 minute at Ground Zero scarred them 
for life.
    How many scars do you suppose we carry, we who worked there 
10 hours a day, 7 days a week for 10 months?
    Some of these scars reveal themselves when you least expect 
them. A few weeks ago, while I was at home, I got up from my 
chair and went to the kitchen to get a soda. While I was in 
there, my little grandniece, Kayla, decided to play a joke on 
me by placing her foot in the opening between the seat cushion 
and the back rest of my chair so that by sitting on her foot 
she could kick me in the butt.
    Well, when I saw that seemingly disembodied foot on the 
chair, it triggered a memory. My heart stopped. I held my 
breath and shouted, ``oh, no.'' I caught myself before I broke 
down in tears.
    My daughter, Amanda, noticed my strange behavior and asked, 
``what is wrong, dad; are you all right?'' I answered, ``yeah; 
yeah, I am all right. It is nothing.''
    I hope I never have to tell anyone about the carnage that I 
witnessed at Ground Zero. It will remain buried in my memory 
until it is time to let it go.
    In July 2002, after 300 days of service, I left Ground Zero 
for what was the last day of the rescue and recovery effort. 
But before we left, we sat around the table at the last 
debriefing meeting, and everyone said their goodbyes. When my 
turn came around, all I could offer was the song ``Danny Boy.'' 
I don't know how it sounded, but it really didn't matter. We 
all cried together for the first and last time.
    We had combed through every inch of that 16-acre site until 
there was nothing left. The real last truck left at 10:30 p.m. 
with the contents of what was brushed off the windowsills of 
1010 Firehouse. It was only then that I turned my attention to 
my own physical and mental wellbeing.
    For the record, I have no doubt in my mind that my exposure 
to poisonous toxins at Ground Zero will eventually kill me. The 
rule of medicine that toxins wash out of your body 90 days 
after exposure does not apply to an environment that 
contaminates you continuously over a 10-month period. And post-
traumatic stress disorder will not go away by itself.
    There is an overwhelming need for more mental health 
services. The WTC Registry, while well meaning, is not an 
accurate gauge of the real effects of working at Ground Zero. 
The Mount Sinai Monitoring Program monitors the health, but 
funds are needed to provide treatment, too.
    Today, after much effort and the help of caring 
organizations like the New York Rescue Workers Detox Project 
and Serving Those Who Serve, the poisons that resided in my 
body seem to have finally washed out. But it is their path 
through my body and what damage they may have caused on their 
way out that concerns me.
    My examination results confirm that 11 months after I began 
working on the site, I still had high levels of mercury and 
arsenic in my blood. These toxins affect your liver and brain 
cells. All the dust and pulverized toxic powder that I inhaled 
affected my breathing.
    My diminished lung capacity will continue to worsen over 
time, and if asthma doesn't get me, then liver disease probably 
will.
    There have been times since Ground Zero that my breathing 
has been so labored, I have felt close to death, close to being 
reunited with my first-born son, Justin, who died in 1997 from 
an asthma attack.
    He died praying for one more breath. Working at Ground Zero 
was indeed worth dying for. But when the next attack comes, as 
we all know it will, you are going to want us there. You are 
going to need us there. Whether we will be healthy enough to 
answer the call is up to you. The death toll from Ground Zero 
is still being counted. What number will I be?
    If you let the best trained, most dedicated responders in 
the world die from neglect, then the terrorists truly win.
    All that I can ask of you is to give us one more breath. 
Thank you.
    [The prepared statement of Mr. Vega follows:]

    [GRAPHIC] [TIFF OMITTED] T8531.036
    
    [GRAPHIC] [TIFF OMITTED] T8531.037
    
    [GRAPHIC] [TIFF OMITTED] T8531.038
    
    [GRAPHIC] [TIFF OMITTED] T8531.039
    
    [GRAPHIC] [TIFF OMITTED] T8531.040
    
    Mr. Shays. Thank you, Mr. Vega. Mr. Bethea.

                   STATEMENT OF MARVIN BETHEA

    Mr. Bethea. Yes. Chairman Shays and distinguished Members 
of Congress, thank you for giving me an opportunity to testify 
here today.
    My name is Marvin Bethea, and I used to be a New York City 
paramedic; and I am disabled due to the results of September 
11th. My partner, James Dobson, and myself were assigned to the 
Trade Center after the first plane struck.
    In the 23 years I was on the job, I have had a gun put to 
my head twice. I had been shot at once, and nothing could 
compare to what we went through on that day. People ask me what 
was it like. Again, I tell people think of going from day to 
night in no time, and you are completely blind, and you 
couldn't see at all. And at the same token, you had a big 
bucket of toxic dirt that was being thrown down your throat.
    We were literally blowing out small pieces of concrete out 
of our nose on that day.
    Five weeks to the day of September 11th, I suffered a 
significant stroke, at which I did recover, and went back to 
work to only develop asthma, post-traumatic stress disorder, as 
well as sinusitis and major depression. January 8, 2004 was the 
last day I actually worked.
    Why are we here today? We are here today because we have a 
major, major health crisis going on. What people failed to 
realize is Ron, as well as a lot of other people here, we had 
very physical jobs, in which we had to take physicals to get 
those jobs, and once we got the jobs, every year we were 
required to take a yearly physical, in which we passed those 
physicals so we were allowed to continue to work.
    So the question now becomes if all these people were 
healthy, why now is everybody sick, and the common denominator 
is, once again, it is September 11th. And the numbers are just 
simply mind boggling.
    We were told that the air was safe, which we all know now 
is simply not true. Again, it is a disgrace. I would like to 
honor Tim Keller, who was a 41-year-old EOT from New York City 
EMS, as well as Mike Kendrick, a 53-year-old, who just died 2 
weeks ago, who was an iron worker with five children, as well 
as Detective James Zadroga, 34. And the list goes on.
    We basically have been given a slow death sentence, and we 
all got to say who is next? Who is the next person to go? That 
is something that is constantly in our mind.
    What has the government done or hasn't done? I mean the 
government failed. The September 11th Fund was ideal. It was a 
great intention. Execution of it was poorly done.
    Again, the parameters of this that were set up was simply 
totally unfair, and the people got lost in the system.
    If something happens until you wait the first 96 hours, it 
was OK. But you take a man like John Feal, for instance, a 
construction worker, who had half of his left foot amputated 
about the 17th day of September 11th. He received nothing from 
the September 11th Fund, because it didn't happen within the 
first 96 hours; and, yet the man has had 30 different 
operations, and he goes back into the hospital this week for a 
33rd operation. Again, the government gave him zero when it 
came to the September 11th Fund.
    I mean how do we do that?
    Also for the fact that fire burned for over 3 months, so 
all the people who were down there were being exposed on a 
continuous basis. So if you were not there within 96 hours, you 
got nothing.
    If you were there for 3 months, maybe after the fact so you 
were still inhaling deadly toxins, but yet nothing was being 
done, and you weren't entitled to anything. That is simply not 
right.
    I have to say thank you to Congresswoman Maloney, 
Congressman Fossella, and the other elected officials who did 
help us get back that $125 million.
    Something needs to be looked into with New York State, 
because people are unaware of the fact that workers' comp 
situation is so complicated that the workers' comp claims are 
being denied five times greater with September 11th, and 
something needs to be done about that as well.
    I mean these people are already on edge, and they don't 
want to go through the New York State harassment with the New 
York State workers' comp.
    September 11th was the most significant event that happened 
in American history today. People often say, where were you 
when Kennedy got shot? I remember, because I was 4-years-old. I 
remember it like it was yesterday, and now people say well, 
what about September 11th. Well, you know, September 11th we 
will never forget what happened on that day. And you know, it 
gets back to the words of John F. Kennedy, who said, you know, 
``my fellow Americans, ask not what your country can do for 
you. Ask what you can do for your country.''
    And I would be curious what would President Kennedy say 
today about the way in which the heroes and the survivors of 
September 11th are being treated? It is simply totally un-
American that this is going on.
    To the elected officials who made all these promises that 
we will never forget you, we will take care of you, I want to 
know what has changed now that all of a sudden, we are being 
forgotten. Do I need to pull your sound byte and remind you of 
what you did say on September 11th? It is an absolute disgrace.
    And to the President, Bush, I would say show us some of the 
same compassion that I personally showed one of your family 
members as a patient in my ambulance.
    Thank you.
    [The prepared statement of Mr. Bethea follows:]

    [GRAPHIC] [TIFF OMITTED] T8531.041
    
    [GRAPHIC] [TIFF OMITTED] T8531.042
    
    [GRAPHIC] [TIFF OMITTED] T8531.043
    
    Mr. Shays. Thank you, Mr. Bethea. Dr. Levin.

               STATEMENT OF DR. STEPHEN M. LEVIN

    Dr. Levin. Thank you for letting me testify today.
    Mr. Shays. Is your mic on, sir?
    Dr. Levin. Is that working? Is that better?
    Mr. Shays. I usually find it is the doctors that don't know 
how to do it. I am totally teasing--totally teasing. I don't 
get it right.
    Dr. Levin. Thank you for asking me to testify today. I have 
been asked to talk about the unmet health needs in the 
aftermath of the September 11th attacks on the World Trade 
Center. And I hope that my comments and those of my fellow 
panelists can draw attention to the widespread and persistent 
health impacts of such disasters.
    There are thousands of men and women who are still ill and 
suffering as the result of their heroic rescue and recovery 
efforts after the World Trade Center was hit. The horrifying 
human suffering and loss of life caused by Hurricane Katrina 
has again showed the clear need for our Nation to improve its 
planning, and implementation of effective public health 
responses to man-made and natural disasters.
    A public health response should always include protecting 
the health of rescue and recovery workers, as well as saving 
the lives and protecting disaster victims.
    In the heat of the effort to save the lives of victims, we 
have to minimize disability and illness among the rescue and 
recovery workers and those who bring such devastated areas back 
to life.
    Now, nearly 4\1/2\ years after the attacks on the World 
Trade Center, the men and women who worked in the rescue and 
recovery and clean up efforts are still suffering. Respiratory 
illness, psychological distress, and financial worries have 
reshaped the lives of many of these responders.
    It is important to note that the World Trade Center 
responders were provided with important medical programs that I 
will talk about in just a moment. The many thousands of 
residents of lower Manhattan and the thousands of workers who 
returned to the area within days and weeks of September 11th 
had no federally funded services available to them to assess 
effects on their health. That is a public health need that 
remains unmet.
    I would like to talk just for a moment about the medical 
screening and monitoring programs, and they exist, in large 
part, because of the efforts of New York's organized labor 
community and the clinical experience accumulated by our Center 
for Occupational and environmental medicine and the Medical 
Department of the Fire Department of New York City.
    Because of their efforts, the Federal Government came to 
recognize that evaluating and monitoring the health 
consequences of the September 11th attacks was important to the 
health of rescue and recovery workers.
    It was clear also that we had to learn all we could about 
the health consequences of this horrific disaster. In June 
2002, Mount Sinai received $11.8 million in Federal funding 
from NIOSH to design a medical screening program and to 
organize and coordinate a consortium of health care centers in 
New York and nationwide to provide free medical screening exams 
for responders who were involved in the rescue and recovery 
efforts, the removal of debris, the restoration of vital 
services, and the clean up of the buildings around Ground Zero, 
and those who worked at the Staten Island landfill.
    From its inception, in April 2002, to its end, in 2004, the 
clinical centers of this program saw nearly 12,000 people. This 
was an economically and socially diverse group of individuals. 
And of that group, nearly 9,000 were seen by Mount Sinai 
physicians.
    We published the results of a 10 percent sample of the 
people we saw in that program. They have been discussed before. 
The real point is that very high rates of upper respiratory 
problems like sinusitis, laryngitis, persistent sore throats 
were reported when people were down at Ground Zero, but also up 
to the month prior to their examination in our screening 
program.
    Similarly, very high rates of lung symptoms, chest 
tightness, wheezing, shortness of breath, cough were reported 
among people who were seen in our program--reported about their 
experiences when they were down at Ground Zero, but also up to 
the month prior to the time that we saw them.
    Approximately 40 percent had persistent psychological 
distress at the time that we examined them, and what is very 
important is that we did objective pulmonary function testing, 
not just asked people about their symptoms, but examined them 
and did special pulmonary function testing, and the rates of 
abnormality were some two to three times what would be expected 
in the general population.
    Now, it is important to note that these effects were still 
occurring on average 8 months after people had left the Ground 
Zero site or their World Trade Center efforts. These were not 
just brief and transient problems.
    What we are seeing in our clinical settings today are very 
similar. We are still seeing persistent respiratory problems, 
psychological problems, and gastrointestinal problems.
    Now, Mount Sinai received Federal funding through NIOSH and 
the CDC to serve as a clinical center and as a data and 
coordination center for the World Trade Center Medical 
Monitoring Program. That is to provide followup examinations 
every year and half for 5 years to responders who were seen in 
the screening program, and it is also set up to see people for 
the first time for first examinations among those responders 
who couldn't get into the screening program when it existed.
    We began seeing responders in 2004, and we are presently 
conducting followup examinations, as well as providing initial 
examinations. And we have seen an additional nearly 2,500 
people for the first time, and nearly 4,000 for repeat 
examinations.
    People are still coming for the first time now 4\1/2\ years 
after September 11th, because of their concerns about either 
persistent current symptoms or because they are worried about 
what is going to happen to their health in the long term.
    For many coming to our program, fears of future 
catastrophic illnesses like cancer, which can take 20 to 30 
years to show up, looms large or larger than their current 
illnesses, because many responders sustained unprecedented 
exposures, of which the long-term consequences are unknown. 
This population should be under medical surveillance with 
periodic medical examinations, not just telephone interviews, 
for another 30 years, not because we want to count how many 
illnesses they develop and whether it is unusual, but because 
it is important to detect as early as possible diseases like 
cancer that develop years after exposure and that are much more 
effectively treated if we find them early.
    There are new approaches to early detection being developed 
every day in research laboratories across the United States and 
worldwide. It is important that we use the best tools we have 
to protect the health of this remarkable group of men and 
women, given what they have done.
    We estimate that current funding will permit the World 
Trade Center Medical Monitoring Program to conduct examinations 
of some 12,000 responders once every year and a half for the 
next 5 years only, lasting only through 2009.
    Let me speak just for a moment about treatment. One of the 
greatest concerns in my responders and those of us who are 
trying to provide their care----
    Mr. Shays. Doctor, if you could please summarize.
    Dr. Levin [continuing]. Is the need for treatment. It is an 
excellent thing that we were provided with funding to monitor 
and evaluate. It is absolutely key that treatment resources be 
made available. We were able to obtain some philanthropic 
funding to set up a health effects treatment program. We have 
seen some 1,900 responders in that program. They are 
persistently ill despite the best care that we are able to 
offer them, and the need for care will not end when that 
funding runs out in approximately a year and a half.
    It is not enough to tell a person who has done what these 
responders have done that, yes, you have asthma. Now, go find a 
way to get treated.
    The data that we have accumulated makes clear that we need 
to provide treatment resources for these people. The workers' 
compensation system in New York has presented nothing but 
insults and frustration for those workers who have attempted to 
get access to benefits. A small proportion of claimants have 
gotten their cases accepted expeditiously. The majority filed 
claims that were fought tooth and nail by workers' comp 
insurance companies or self-insured employers, including 
unfortunately New York City, with genuine heroes being accused 
of lying and malingering, and their testing and treatment 
delayed for months and even years.
    This is a fragmented health care system in the United 
States. It is seen all too clearly in the challenges these 
heroes have had to face simply to get treatment for their World 
Trade Center related illnesses, and it is important now that we 
go ahead and provide mental and medical health care for all who 
sustained health consequences as a result of this disaster, and 
that means the residents in lower Manhattan, as well as all 
those workers who returned prematurely to that dangerous site.
    And it seems that we have to do better if there are going 
to be disasters in the future in establishing an infrastructure 
and a response that truly is public health in its orientation 
and in its nature.
    We have to provide information to treating physicians, 
which didn't happen in the case of the September 11th disaster, 
and it is important that we develop programs to provide early 
diagnosis and treatment. These heroes deserve no less, and the 
people who live in this the wealthiest of nations have reason 
to expect that in the face of disaster, their health needs will 
be our country's top priority.
    [The prepared statement of Dr. Levin follows:]

    [GRAPHIC] [TIFF OMITTED] T8531.044
    
    [GRAPHIC] [TIFF OMITTED] T8531.045
    
    [GRAPHIC] [TIFF OMITTED] T8531.046
    
    [GRAPHIC] [TIFF OMITTED] T8531.047
    
    [GRAPHIC] [TIFF OMITTED] T8531.048
    
    [GRAPHIC] [TIFF OMITTED] T8531.049
    
    [GRAPHIC] [TIFF OMITTED] T8531.050
    
    [GRAPHIC] [TIFF OMITTED] T8531.051
    
    [GRAPHIC] [TIFF OMITTED] T8531.052
    
    [GRAPHIC] [TIFF OMITTED] T8531.053
    
    [GRAPHIC] [TIFF OMITTED] T8531.054
    
    Mr. Shays. Thank you, doctor. Dr. Kelly.

                STATEMENT OF DR. KERRY J. KELLY

    Dr. Kelly. Good afternoon, Chairman Shays, Congresswoman 
Maloney, and Congressman Fossella. My name is Dr. Kerry Kelly, 
and I am the chief medical officer for the New York City Fire 
Department.
    I would like to thank you for the opportunity to testify 
today. I would also like to thank you for the restoration of 
the $125 million in September 11th funds, particularly for the 
$75 million that will be available to local agencies providing 
health and mental health services and monitoring.
    On September 11, 2001, the FDNY responded to the World 
Trade Center prepared to save lives. That is what they do every 
single day. Fire Department members continued their rescue and 
recovery efforts at the World Trade Center site for the weeks 
and months that followed. Nearly 14,000 of our personnel from 
every rank took part in the rescue, recovery, and clean up 
efforts at the World Trade Center site. Our first responders 
were the first in and the last out.
    During the initial recovery and evacuation and later during 
the extended recovery that followed, our first responders were 
exposed to the physical hazards of the World Trade Center site.
    No less significant is that our members were also exposed 
to the emotional trauma. Very soon after September 11th, we 
began to see medical symptoms, particularly that of respiratory 
complaints. In recognition of those exposers, the FDNY 
initiated the World Trade Center Medical Screening Program in 
October 2001, just 4 weeks after September 11th.
    The Bureau of Health Services partnered with the CDC and 
NIOSH to implement medical screening for the exposed FDNY first 
responders. More than 10,000 of our responders were evaluated 
in the first 6 months following September 11th, and in 
collaboration with NIOSH, we started our medical monitoring 
followup program.
    To date, we have seen over 4,000 of our FDNY exposed first 
responders in this second visit evaluation. It is our goal to 
continue to evaluate 13,700 first responders over the next 
several years, but our goal really has to be to take people 
beyond the 2009 cutoff that we currently face.
    This extended medical monitoring is critical to the early 
detection and treatment of diseases, such as cancer, heart and 
lung disease. We know that asbestos-related illness data from 
prior occupational exposures show that cancer is detected 15 to 
30 years after exposure.
    Because HHS had a medical infrastructure in place prior to 
September 11th that included annual medical examinations for 
all of our first responders, we are able to compare pre-
September 11th data to post-September 11th data. What we have 
seen on a significant basis is a drop in pulmonary function 
tests. In this healthy, athletic work population, we have seen 
a significant decline that correlates well to the members' 
initial time of arrival at Ground Zero. This pulmonary function 
decline is 11 times greater than the average decline you would 
ordinarily see with aging.
    In the first 6 months following September 11th, 332 of our 
firefighters required extended medical leave for what has been 
called the World Trade Center cough.
    Now, 4\1/2\ years later, over 25 percent of the FDNY 
members are still reporting respiratory symptoms, and 2,000 
have received extensive evaluation and treatment for 
respiratory disease. Nearly all of these symptoms have been due 
to asthma or rads. Unfortunately, symptoms persist, and many of 
our first responders still need multiple expensive medications.
    More than 540 of our fire department firefighters have 
qualified for permanent lung disability, a four to five times 
annual increase compared to pre-September 11th.
    Our counseling service unit responded to the new needs of 
this department after September 11th, expanding from a single 
counseling unit in Manhattan to multiple locations in the 
communities where our first responders live.
    Partnering with multiple resources, we secured critical 
funding to provide needed counseling services. More than 12,000 
people have sought mental health services through our CSU. Are 
those needs still there? The answer is yes.
    Before September 11th, we treated about 50 new clients a 
month. Currently, our 6 locations now average around 260 new 
intakes a month. More than 85 percent of our clients are active 
members who remain on full duty while seeking assistance.
    The city's Department of Health and Mental Health World 
Trade Center Health Registry provides essential tracking of 
short and long-term health effects for more than 71,000 
enrollees. It is the only resource designed to track and 
maintain contact with a diverse group of people most highly 
affected by exposure to the events of September 11th.
    More than 3,500 of our first responders had to retire 
sooner than expected; some with health issues; all with health 
concerns. These dedicated first responders would have fallen 
off our health track radar were it not for our intensive 
followup medical and mental health monitoring program.
    Fortunately, with the efforts of the Senators and Members 
of Congress, we will receive the additional funding for the 
Medical Monitoring Program for another 3\1/2\ years, through 
July 2009.
    This monitoring program allows us to monitor and identify 
early trends of patterns of illness or wellness.
    But as I noted earlier, it will not help us follow for the 
long term. We need to continue this monitoring program for 20 
to 30 years if we are to see the long-term consequences of this 
environmental disaster.
    The current Medical Monitoring Program also does not 
address treatment. That is one of the many reasons why we need 
a rapid disbursement of the $125 million Federal World Trade 
Center aid to our treatment centers.
    We thank you for the reinstatement of the funds, and we 
again hope for that quick reimbursement of funding so that we 
can provide the needed clinical services.
    The FDNY takes great pride in responding to the health and 
safety needs of the residents of our city. When the call is 
sounded, the FDNY arrives to help, well aware that the threat 
of terrorism remains, our first responders provide security for 
our homeland every day. But we have concerns about the health 
and safety of our rescue workers.
    We have an obligation to make sure that no member is left 
behind. We lost too many on September 11th. Early diagnosis and 
treatment is effective. We can only prevent more loss of life 
through sufficient, continued funding to provide long-term 
monitoring and treatment. Thank you for the opportunity to 
speak to you today.
    [The prepared statement of Dr. Kelly follows:]

    [GRAPHIC] [TIFF OMITTED] T8531.055
    
    [GRAPHIC] [TIFF OMITTED] T8531.056
    
    [GRAPHIC] [TIFF OMITTED] T8531.057
    
    [GRAPHIC] [TIFF OMITTED] T8531.058
    
    [GRAPHIC] [TIFF OMITTED] T8531.059
    
    [GRAPHIC] [TIFF OMITTED] T8531.060
    
    [GRAPHIC] [TIFF OMITTED] T8531.061
    
    [GRAPHIC] [TIFF OMITTED] T8531.062
    
    [GRAPHIC] [TIFF OMITTED] T8531.063
    
    [GRAPHIC] [TIFF OMITTED] T8531.064
    
    [GRAPHIC] [TIFF OMITTED] T8531.065
    
    [GRAPHIC] [TIFF OMITTED] T8531.066
    
    [GRAPHIC] [TIFF OMITTED] T8531.067
    
    [GRAPHIC] [TIFF OMITTED] T8531.068
    
    [GRAPHIC] [TIFF OMITTED] T8531.069
    
    [GRAPHIC] [TIFF OMITTED] T8531.070
    
    [GRAPHIC] [TIFF OMITTED] T8531.071
    
    Mr. Shays. Thank you all for your testimony. I will give my 
time and take his time and allow Mr. Vito Fossella to ask the 
first round. And, Vito, we go 10 minutes.
    Mr. Fossella. Thank you very much, Mr. Chairman. I will be 
very brief. For Dr. Kelly, and then thank the whole panel for 
their testimony in coming here today.
    Dr. Kelly, CDC is currently working out the distribution of 
the funding that we all mentioned has been restored for 
treatment. Now, do you have any projections on the long-term 
funding needs for the Medical Monitoring and treatment of, in 
your case, firefighters?
    Dr. Kelly. We would project with additional funding, we 
would need about $10 million per year, and again that funding 
would ideally take us for the next 3 years, through the year 
2009.
    That would allow us to do treatment that will supplement 
what the American Red Cross has given us. That particular 
funding is going to be ending within the 2006-2007 timeframe, 
as well as to continue and add to our monitoring program.
    Mr. Fossella. Are there any projections beyond 2009?
    Dr. Kelly. Again, our minimum would be at least that much, 
and we would need to continue that program beyond 2009. It is 
very important that we look at the long-term monitoring and 
treatment. Two thousand and nine, although it sounds far in the 
future, really isn't very far in the timeframe that we are 
thinking about if we are going to look at long-term patterns of 
illness, given the exposures that we saw in our department.
    Mr. Fossella. So we are saying long term. I mean I know you 
reference in the testimony upwards of 30 years. Is that to you 
long-term or is 20 years long-term in your opinion? How do you 
define it?
    Dr. Kelly. I think 20 to 30 years would be the timeframe we 
would be looking at to see the kinds of outcomes that we have 
seen in the past from exposures to something just of asbestos, 
there are other exposures at that site that we probably don't 
even know all of the different substances and what those long-
term outcomes may be.
    Mr. Fossella. OK. For both you and Dr. Levin, funding 
aside, are there policies at the Federal level you feel would 
be helpful or now a hindrance to assist you in not only, you 
know, ongoing and long-term medical monitoring and treatments, 
but that can better prepare and help address the needs of 
firefighters and first responders for a, God forbid, future 
attack?
    Dr. Kelly. I think we were very fortunate that we had a 
pre-existing medical office, and we were there on the ground 
ready to start our work. We were able to recognize patterns of 
illness, because we have a centralized medical office. I think 
we worked very well collaborating with fellow medical 
institutions, such as Mount Sinai, and we have also worked with 
CDC and NIOSH so that we could develop programs that brought 
thought and balance into these programs. I think we play a 
critical role because of the cohort size we see. We see over 
10,000 to 15,000 members. Mount Sinai sees about the same 
amount of people. The larger the groups that you can evaluate 
and see, the better you are able to see patterns of illness, 
and you can really appreciate the development of treatments and 
understand how to take care of people.
    Dr. Levin. If I can just add to what Dr. Kelly has said. It 
was clear in the wake of the September 11th disaster that there 
was not a coordinated response at any governmental level to the 
health concerns. It was rapidly clear to those of us who 
practice occupational medicine that the likelihood of 
respiratory problems and psychological distress was very high, 
given what we saw on television people being dragged off the 
pile choking, you know, for breath and at no point did any 
level of government issue an advisory to the treating medical 
community on how to understand the exposures, how to understand 
the illnesses that might develop from those exposures, how to 
evaluate such individuals, and how to treat them. We do that 
for many other illnesses. It is a normal public health 
response. It didn't happen here. And in any disaster situation, 
it is the most important thing that physicians and other 
practitioners who are going to see such individuals have some 
idea of how to understand what they are going to be evaluating 
and treating.
    We don't train our physicians in this country in 
occupational and environmental medicine, so the best 
intentioned of physicians treated many of our patients with 
antibiotic after antibiotic for things that were not 
infections, but rather chemical burns.
    In the situation following September 11th, there never was 
assembled a panel of people with expertise in public health, in 
understanding environmental exposures and their consequences, 
to make an assessment of what were the exposures and what were 
the consequences. There was a considerable amount of political 
and economic influence on policy shaping. It seems to us that a 
public health response requires that experts in understanding 
the health effects of such exposures have to be isolated from 
those influences for at least a period of time so an accurate 
assessment can be developed and appropriate attempts to control 
the illnesses among responders and other victims can be 
developed.
    The issue of a failure to develop treatment resources and 
the slowness of developing a screening program and monitoring 
program for other than the fire department, it was a wonderful 
thing that they had an infrastructure in place. There was no 
such infrastructure in place for the other responders other 
than New York State's Occupational Health Clinic Network 
Centers, which we are one of. And it was a good thing that we 
were there.
    Nevertheless, the failure to develop a treatment response, 
we are still seeing the consequences of because treatment 
delayed for many meant a greater severity and longer 
persistence of their illness.
    Mr. Fossella. Is there a time period in which there should 
be this treatment response or this group to sit down, as you 
say, a panel of experts to assess the nature of the problem and 
then to issue the advisories accordingly?
    Dr. Levin. Three weeks before the disaster and that means 
now we should be thinking about what sort of panels are 
appropriate to pull together for this purpose. But certainly 
after a disaster, within a day, it is possible to gather people 
with relevant expertise to assess the situation and develop 
proposals as to how to mount a public health response.
    We are an advanced technological society. We are capable of 
doing this sort of thing, and it requires the political will to 
make sure that it happens, because technically it is possible 
to do it.
    Mr. Fossella. Finally, doctor, and it is more of I guess 
procedural--I know there was many--and we have received some 
calls from some former New York City Police Department officers 
who are now retired and living in other States. My 
understanding is Mount Sinai contracts with the clinics outside 
of New York, so September 11th responders living in those areas 
have a place to go for exams. Can you elaborate on that, and if 
there are those officers who are not near one of these clinics, 
are there plans in the works to identify clinics that are 
better prepared to handle that population?
    Dr. Levin. Under the auspices of our screening program, 
from 2002 through 2004, we saw nearly 700 responders from 
around the country outside of the New York Metropolitan Area, 
who had come to New York and done their significant rescue and 
recovery efforts and then returned home.
    We were able to work with an association of occupational 
medicine clinics that exists throughout the United States 
during that time to provide screening examinations. No 
treatment resources were available for that group as well.
    In the monitoring program, we are now in the process of 
setting up exactly that sort of network around the country to 
provide a second round of examinations and ongoing examinations 
to those responders from around the country.
    Again, the issue of treatment resources for them will be a 
problem. There are some responders from areas of the country 
where there is no local expertise in occupational or 
environmental medicine. There isn't an occupational medicine 
center nearby.
    We will work with local physicians, providing them with 
basic training materials on how to do the assessments that we 
do here in our programs in the New York Metropolitan Area, and 
how to make appropriate referrals with guidance sheets as to 
how to understand these illnesses and how to manage them and 
treat them so that local physicians, even if they don't have 
expertise in occupational medicine and unfortunately too many 
don't, will at least have the guidance of our experience that 
we have accumulated over the last 4\1/2\ years.
    Mr. Fossella. So it is up to, say, in this case, an 
individual to see if there is a local physician willing to 
assume that responsibility and willingness to learn from you 
how to handle----
    Dr. Levin. We will try to identify such physicians in any 
geographical area where responders are. If they are unable to 
travel to get to a clinical center with real expertise, we will 
try to identify local practitioners, physicians with whom we 
can work to provide these examinations.
    Mr. Fossella. Thank you very much. Thank you.
    Mr. Shays. I thank the gentleman. Mrs. Maloney, you have 
the floor.
    Mrs. Maloney. Thank you. First of all, I would like to 
thank all of the witnesses today for their excellent testimony, 
especially our two September 11th responders, Ron Vega, who is 
a constituent of mine, and Marvin Bethea, who is a founding 
member of the Unsung Heroes Helping Heroes, a group that I am 
always proud to stand with in our fight for September 11th 
issues. And they are representative of thousands more workers, 
and they have led efforts to bring their concerns to Congress. 
They have been here many times, and I thank them for their 
work.
    I would like to ask Ron Vega. It is my understanding that 
you are a participant in both the World Trade Center Monitoring 
Program and the World Trade Center Health Registry.
    Can you tell me about your experiences with each, and were 
they helpful to you?
    Mr. Vega. Thank you for your help. I have to say that the 
Registry, which I participated in, as I have said, probably a 
month after I left the site in 2002, I have to be apologetic. 
It had so little significance to me that I forgot that I even 
participated in it.
    I remember that we were forced by our agencies and nagged 
and nagged and nagged to make that call, and then, when we made 
the call, we were very frustrated by the questions that were 
being asked of us. It was actually kind of consultant service 
that was hired. These people really had no idea what we had 
been through. The presentation of the questions were very 
insulting in many ways. The questions that we were being asked 
were like don't you know what we have been through? Why are you 
asking us that?
    So I have to say it reminded me of when I was a young 
teenager and I got a survey about somebody doing a sex survey 
and how active I was in my teens sexually. I have to say I lied 
a lot on that survey.
    And I had the same reaction on this survey. I didn't really 
know how to answer it, because I knew that the questions did 
not allow the proper answer that I wanted to give.
    So I do appreciate the attempt that was made, but I didn't 
really appreciate the questionnaire or the people that were 
asking. I was pretty frustrated when I got off that phone. I 
think I needed therapy when I got off the phone, and there was 
nothing there. So that is why when the WTC Mount Sinai Program 
started, at least it was something that said look you go into a 
hospital. You are going to a hospital environment. You are 
going to go see nurses, doctors. People are going to look at 
your health. They are going to give you an examination. Even 
that in a sense is frustrating, because you feel like OK, you 
are going to watch me die, and you are going to watch me die 
over 20 years. And you are going to confirm that I died out of 
something I got at Ground Zero. But maybe that will help other 
people.
    See you keep talking about long-term monitoring. I don't 
think I have 10 more years. I am pretty sure I don't. I don't 
think Marvin thinks he has it, either. Not that we are going to 
see 10 more years. We are going to make these good 10 years, 
and no doubt if the country calls upon us again, we will go. 
But I am pretty sure I don't have it. So just monitor us until 
it makes a difference.
    Mrs. Maloney. Have you received treatment from the 
Monitoring Program?
    Mr. Vega. No. No, I have not.
    Mrs. Maloney. Have you received treatment for your 
condition anywhere?
    Mr. Vega. Here is the problem: the problem is if we are 
working city workers, we can't take the time off to prove we 
are disabled. I am an architect. So what if I can't walk up 5 
flights of stairs anymore. Take the elevator. You can still do 
some design, can't you?
    But the problem is I can't. I can't even function half as 
much as I did before. When you can't breathe, when you think 
you don't have much life left, guess what? It affects the way 
you work mentally also.
    So we are at a high level of mental--I mean I always 
thought that I was a pretty good architect.
    Mr. Shays. Could the gentlelady yield for a second?
    Mrs. Maloney. I yield to the chairman.
    Mr. Van Hollen. Yes.
    Mr. Shays. You know, this is very sensitive, but I find 
myself reacting to what you are saying in one way impress that 
you have an attitude, but feeling like you need to think 
differently. And I really believe that do you do things like 
exercise? Do you do things to compensate or--I mean maybe this 
isn't part of the hearing, but it strikes me that when we talk 
about mental health issues, this is as much a mental health as 
a physical issue for you. And I am thinking that the system is 
broken down more than I even thought, if you are allowed to 
think that without at least being confronted.
    So I want to confront you with it as----
    Mr. Vega. No, you are right on target. You are right on 
target. They are interchangeable. They are intermixed.
    Mr. Shays. Do you have kids?
    Mr. Vega. Yes, I do.
    Mr. Shays. How old are they?
    Mr. Vega. My oldest now is 25.
    Mr. Shays. Right.
    Mr. Vega. No. 2 is 20, and No. 3 will turn 18 this Friday, 
God help me.
    Mr. Shays. OK.
    Mr. Vega. So----
    Mr. Shays. You need a 5-year-old that makes you want to 
live for more than 10 years.
    Mr. Vega. No, I have a grandniece, who makes me want to 
live, and she makes me want to live every minute that I live.
    Mr. Shays. Right.
    Mr. Vega. When you know what it is like to be without air, 
and you get that feeling constantly, when you have to walk all 
around your life with one of these--it goes to a nebulizer----
    Mr. Shays. Has the medical community told you have 10 years 
to live?
    Mr. Vega. No. No, no, no.
    Mr. Shays. Yes.
    Mr. Vega. You know, as I said in my testimony----
    Mr. Shays. You know what I would--we don't have the 10-
minute rule with the----
    Mr. Vega. Oh, OK.
    Mr. Shays [continuing]. Gentlelady from New York and I when 
there is just two of us left. So I will give her back the 
floor.
    Mr. Vega. OK.
    Mr. Shays. I just needed to tell you that I couldn't lead 
this hearing and hear you say what you are saying without 
wondering a bit about whether that is to your advantage to feel 
that way. And I wish there was some doctors that could comment 
about it.
    Mr. Vega. I appreciate what you are saying. I really do.
    Mr. Shays. Where is Dr. Fleming when we need him?
    Mr. Vega. I hope I am wrong, believe me. I hope I am wrong, 
too.
    Mr. Shays. I mean, Dr. Levin, maybe you could just respond 
in general about the attitude that says you are--I mean should 
we make an assumption that people can't be helped, that they 
can't find healings? I mean tell me. Help me out. Dr. Kelly.
    Dr. Kelly. When we did questionnaires right after September 
11th, we asked people about health concerns. Even those who 
didn't have an active problem truly believed their lives would 
be shortened by their exposures. The feeling that you had when 
all of that dust and debris were falling down on you was that 
this can't be good for my health. And for the people who 
continued to have respiratory symptoms, particularly in a group 
who was in good health before that, this was a group who was 
very athletic, very physical. They sought our department work, 
because they liked that hands on. They had no problem running 
up and down buildings with equipment on.
    When you suddenly can't do what you could do before, life, 
as you know it, changes.
    Mr. Shays. Right.
    Dr. Kelly. You know he brings up the point that someone 
says you can take an elevator, but that is not what you planned 
on doing with your life, so people have a changed image of 
their own health, their wellbeing, and what their future holds.
    Mr. Shays. I guess I am reminded of Congressman Dingel, who 
told a whole group of us his father was a rather crusty guy, 
and the doctor told him he only had 5 more years to live, and 
he said, the hell with that. He said, I am going to piss on 
your grave. And that is Congressman Dingel's father, and he 
lived many, many years, and I am just responding to that.
    Dr. Levin. Well, let me comment on this because our 
clinical experience tells us that many of our patients who have 
been given the best of care we know how to give are improving 
but very few are feeling the way they did before September 
11th.
    Mr. Shays. But that is a different issue. Yes.
    Dr. Levin. And the issue of whether, in fact, people's 
lives will be shortened by this experience is not something 
that we can answer with any certainty----
    Mr. Shays. True.
    Dr. Levin [continuing]. At this point. And unfortunately, 
the recent deaths in New York have provoked lots of words among 
World Trade Center responders as well as community residents 
and everyone who came back to work in lower Manhattan.
    Mr. Shays. I just don't like the idea that we are going to 
pay money to monitor their death. I want to monitor their life, 
and I want to find ways to help them live.
    Dr. Levin. I think the last point that you made is the most 
important point.
    We are interested in learning what we can about the 
consequences of this disaster. We are much more interested in 
trying to intervene so that people's health can be protected, 
improved, and that unnecessary death can be prevented. That is 
the purpose of the monitoring program, not to gather 
statistics.
    Dr. Kelly. And the other thing is that this is health and 
mental health, and we know that those two go together, and that 
your mindset affects how you feel physically.
    Mr. Shays. Right.
    Dr. Kelly. And attention to the mental health aspect is 
critical in this monitoring program. We know that the full 
effect from a mental health perspective is not always felt, a 
week or two after the event. It is felt later. And addressing 
that issue is a critical part of what this program is all 
about.
    Mr. Shays. Well, the bottom line is, Mr. Vega, I like you a 
lot. I want you to live a long life.
    Mr. Vega. I just hope that you understand I am about the 
most positive person on Earth.
    Mr. Shays. I know.
    Mr. Vega. So when I say that, it carries a little more 
weight.
    Mr. Shays. Well, you are a beautiful man, and----
    Mr. Vega. Thank you so much.
    Mr. Shays [continuing]. Mr. Bethea.
    Mrs. Maloney. OK. Thank you, Mr. Chairman. I would like to 
ask Marvin Bethea if he would share with us his chart on the 
medicines that tells a huge story in itself. And I would also 
like you to share some of your experiences and specifically do 
you believe or think it is the responsibility of the Federal 
Government to fully monitor and treat the sick and injured 
September 11th responders?
    Mr. Bethea. Absolutely. Again, I would like to draw and say 
now being sick changes your life. I mean I was very athletic, 
and I took great pride in the fact that at 38, I could hit the 
boys' ball to the second baseman, and still beat the ball to 
first. I mean that is how fast I was. They had to go up two 
flights of stairs of huffing and puffing. I played tennis. I 
rode bicycles. I was very athletic. But again, being a 
paramedic, we had to climb up and down stairs. You carry a 
patient, so with September 11th we went. We served. We did what 
we had to do on that day, not realizing that this is going to 
be a slow death sentence. And as much as you try to think 
positive, you do think about death. And I mean I am very 
grateful for the Mount Sinai program, and my psychiatrist, Dr. 
Laurie Malkoff, because without her, I don't know if I would be 
here today. The tests might mean I will never be the same. I am 
very, very emotional. You know being on all this medicine, it 
is very hard.
    For instance, before September 11th, I was taking two 
medicines for colitis. And now, because of September 11th, here 
is all the medicine I have to take.
    Mrs. Maloney. How are you treated? Are you a part of the 
Monitoring Program, on the Registry?
    Mr. Bethea. Right. I was very--I am sorry.
    Mrs. Maloney. What are your experiences with the Monitoring 
Program and the Registry?
    Mr. Bethea. The Monitoring Program at Mount Sinai has been 
absolutely wonderful. I was very fortunate that I got into the 
program early enough not only to get monitoring, but I also get 
the treatment. And so I was one of the lucky guys--myself as 
well as my partner. But there is, you know, like a 3-month 
waiting list to get treatment. So again, is it is nice that the 
government can tell you OK, you can go here. You will get 
monitoring. We will do some screening. But as far as your 
asthma, post-traumatic stress disorder or any other problem you 
have, well, you are on your own, and come back in another 5 
months, and we will tell you whether or not you still have 
these problems, but yet, we are still not going to give you 
treatment, because of the thing is diagnosing, recognizing what 
you do have and then on top of it is then making sure the 
person gets the treatment. And unfortunately, too many people 
are not getting the treatment, and the Federal Government needs 
to have--I mean we see this also go down with Katrina--a 
Federal health care insurance where that if anyone responds to 
a man-made or a natural disaster that and you respond in an 
official capacity, and, God forbid, you get injured or hurt, 
that you will have Federal health care coverage as well as 
receive some type of financial compensation, because now they 
tell everybody about COBRA. Oh, go out and get COBRA.
    Well, COBRA is nice, but if you aren't working and have no 
money, COBRA costs money, so you don't have health care. All of 
this is a real wakeup call for me, because I have always had 
health care insurance. And all of a sudden, when I stopped 
working and I lost my benefits, it was like, oh, my God, I am 
one of those 43 million plus people who don't have health care. 
And that was a real wakeup call.
    Fortunately now, since I do receive Social Security, I now 
have my health care back through my union, but for a while 
there, I did not have health care, and you don't realize how 
important it is until you don't have it. And, you know, we all 
went out to do our jobs that day. I mean you look at a lot of 
these young people who were so affected by September 11th that 
they turned around and they joined the military. They got into 
the Armed Forces, because everybody felt they had to do 
something to support this country, and that is what we did.
    And it is a shame now again and I get back to President 
Kennedy. I always admired President Kennedy that, you know, 
what would President Kennedy say to what the U.S. Government is 
doing today about the treatment of heroes and survivors. It is 
totally un-American, and we are a better Nation than that, and 
we can do better than that. It doesn't make any difference 
whether you are a Democrat, Republican, or an Independent or 
whether you are a Catholic, Jewish, Protestant, Muslim. You 
know, we are a better country. I mean you cut me. I bleed red. 
You bleed red. And it is just a shame that we have somehow lost 
sight of all this. I was very touched and moved by especially 
New York City, as well as the country right after September 
11th how we all became one. And it wasn't this or that. We were 
all united together, and unfortunately, as the years have 
passed now, we started to lose that, and we are quickly 
forgetting what brought us all together again.
    And some people say it is almost as if we need another 
attack to wake us up again, and we don't want that to happen, 
but, you know, we could do a lot better than that, because why 
should any rescue people respond to anything knowing that, God 
forbid, I get hurt or I get sick that I won't be able to take 
care of myself or my family. I mean these people--I know guys 
that are losing their families, losing their homes, because 
there is no money, and every time they go and try to get help, 
it is like, well, you don't qualify for this. You didn't fill 
out the paperwork soon enough. And I know, yes, we are a better 
country than that. We truly are, and we need to take care of 
the people, because you can pay me now or you can pay me later. 
And we need to pay the people and do it now, so we don't wind 
up paying a big price down the road.
    Mrs. Maloney. Well, I think you raised a lot of important 
points and that we need to, God forbid, we have another 
September 11th, but we have to learn from this experience for 
future disasters and future emergencies.
    I want to compliment Dr. Kelly on your testimony. The fire 
department really is the symbol of the strength and resilience 
of New York. You lost so many people. They performed so 
bravely, and I know I join Congressman Fossella in supporting 
his line of questioning on what it is you need to continue your 
work and just ask that request be placed in writing to our 
committee so we can continue to work with you and the 
administration on meeting your needs.
    I would like to pose the same question to Dr. Levin that 
Congressman Fossella posed to Dr. Kelly, which is, what do you 
feel you need to complete your work in terms of resource and 
length of time, and I--what do you feel that you as a 
consortium need to continue to complete the work of helping the 
September 11th responders?
    Dr. Levin. About a year or a year and a half ago, we were 
asked to come up with an estimate of what would be needed to 
follow this group of responders out over the next 20 years, not 
just for screening evaluations and monitoring examinations, but 
for treatment as well.
    Dr. Prezant, Dr. Kelly's colleague, and I sat down and 
quickly made an assessment of well, what were our current 
levels of funding, what were we not able to do with that 
funding, and what would be needed.
    And over the next 20 years, we made an estimate of about 
$315 million to $320 million to provide monitoring as well as 
treatment resources over this next 20-year period. If this 
population----
    Mrs. Maloney. And that is with the fire department and 
Mount Sinai or just the Mount Sinai consortium?
    Dr. Levin. At that time, it was the two programs combined.
    Mrs. Maloney. The two programs together.
    Dr. Levin. We have learned some now that we didn't know 
when we made that first estimate of what it really costs to 
provide especially mental health services, how commonly these 
mental health problems are experienced by our responder 
populations, and how severe they are.
    And I think that initial estimate was probably something of 
an underestimate, but it is a reasonable approximation.
    The problem is that following people for only 20 years 
means that some people will go ahead and develop cancers as a 
consequence of their exposures at Ground Zero or at that Staten 
Island landfill, who will not develop those diseases within 20 
years time. We know the experience of occupational groups and 
how long it takes for them to get their cancers after 
exposures.
    So a period of at least 30 years is warranted, which means 
that some additional money would be needed to follow them for 
another 10 years.
    Mrs. Maloney. Thank you, and I join Fossella in hoping you 
will get that to us in writing.
    And GAO, you haven't had a question yet, so I thank you for 
your testimony and the many research papers that have done on 
the September 11th response and what is needed.
    And I would like to ask isn't it likely that the variation 
in the current array of monitoring programs--I believe you 
mentioned four in your testimony--will lead to many situations 
in which people will have the same exposure, but may not have 
their needs met because they will have unequal access to exams, 
unequal followup and unequal treatment.
    Ms. Bascetta. Yes, that is certainly the case. I think that 
Dr. Levin characterized our health care system as fragmented 
and that, in combination, with a rather haphazard approach to 
monitoring as the situation evolved over the last several 
years, you know, creates, as we have stated, some people who 
get only a one-time exam; others who get an examination with 
followup. Those examinations are not necessarily consistent 
across the programs, and they are certainly not needs-based. 
They are not based on the exposure that the individual 
experienced. They are based on what program the person is 
eligible for, so that certainly creates inequities across the 
programs if you are looking from a needs-based perspective.
    We would also about the differences in referral patterns 
and how consistently those might be occurring. So you are 
correct in your characterization.
    Mrs. Maloney. So it what hat you wore, not what dirty air 
you breathed in?
    Ms. Bascetta. That is right.
    Mrs. Maloney. In terms of what you are confronted with 
treatment. It should be the same. If you breathe the same dirty 
air, got the same exposure, you should get the same treatment, 
is that basically what you are saying?
    Ms. Bascetta. From a medical perspective, that is what you 
would need.
    Mrs. Maloney. Thank you. My time is up, but I have one last 
question. I would like to ask Dr. Kelly and Dr. Levin, I would 
like to ask you about the World Trade Center Registry, and has 
this Registry ever provided you with any information that you 
have found valuable in conducting your medical monitoring 
programs?
    Dr. Levin. Well, I will take a first crack at that. They 
did release interim reports based on their telephone surveys, 
and what it did was confirm what we were seeing among our 
responder populations--fairly high rates of respiratory 
symptoms being reported and some psychological distress, as 
well as gastrointestinal problems.
    I can't say that anything has been learned that is new that 
we didn't already know from our examination programs. And it is 
probably too early for a registry of that sort to be able to 
identify problems since many of the diseases that presumably 
the registry was set up to identify aren't going to appear for 
another 20, 25 years.
    The real problem that I have with the Registry, and this is 
something of a technical matter, is whether it has the 
statistical power, enough people in its enrollment, to be able 
to detect increases in some of the diseases that we are 
concerned may result from these exposures. The epidemiological 
method that it uses and this is by their own calculations 
indicates that they may not have numbers sufficient to be able 
to answer important questions like are lung cancers going to be 
increased in this population.
    So registries are valuable and important if they have the 
technical capacity to answer the questions they are set up to 
answer. I am not confident that this registry can do that, and 
that is a real concern. We have not learned anything new from 
them thus far.
    Mrs. Maloney. To followup, in reading your papers and 
others, the ``World Trade Center cough'' is usually described 
as a respiratory problem, a breathing problem. Many of the 
people who come to me have rashes and breathing problems.
    You mentioned gastrointestinal problems, and is this 
something that is new coming out years later, but in the first 
research I wasn't gastrointestinal. And is that as prevalent as 
the cough pattern? When you have the cough, do you have the 
related gastro--I think the point that you made on having 
medical protocol like we have for SARS is very, very important 
so that we know what to look at, and I have many people call me 
on their concerns, and this is the first time I have heard 
gastrointestinal. Is that as prevalent as the breathing?
    Dr. Levin. We reported on it early, in September 2004, and 
we began seeing it as soon as we began seeing patients that 
people were experiencing acid reflux problems, very severe 
heartburn, chest discomfort with acid secretions backing up 
into their throats. People had never had this problem before 
September 11th.
    Then we talked to our colleagues at the fire department, 
and they were seeing this very frequently among the firefighter 
responders. And it is quite clear that in our treatment 
program, not the monitoring program, a very high proportion of 
our patients have this reflux problem. That is what we mean by 
the gastrointestinal problem, and it complicates asthma and 
sinusitis. Those people who have acid reflux, who also have 
sinusitis and asthma, we find very much more difficult to 
manage medically because the reflux itself makes those other 
conditions much worse.
    Mr. Shays. Why is that?
    Dr. Levin. We don't have a full understanding, but clearly 
the acid, when it backs up to the throat, some of it is 
inhaled, and that acid is a very strong irritant to the 
respiratory tract, whether we are talking about sinuses or 
whether we are talking about the airways in the lungs. And we 
know that acid mist can provoke asthma and cause it and make it 
much worse.
    Maybe Dr. Kelly has some new understanding of how the acid 
reflux makes conditions worse, but certainly we observe that 
those patients who have this problem, especially if it is 
uncontrolled, find that their asthma and their sinusitis is 
much more difficult to take care of.
    Dr. Kelly. I don't begin to have the answers, but we have 
seen that same increase in GI-type symptoms. It can even be a 
reason for a cough. It can certainly affect some of the voice 
changes that people have, because as that acid refluxes back, 
it can affect the vocal chords, so that a lot of the upper 
symptoms can be influenced and the cough with the GI symptoms.
    But, you know, getting back to the Registry, I think the 
Registry serves a different purpose than the monitoring 
program. It is not a substitute for a monitoring program, and I 
think the problem always is if there is X amount of money, none 
of us should be in a position where we are competing with the 
Registry for money. They are separate programs. They serve 
separate needs.
    But to look at the overall pattern of the people who were 
there and to see trends it serves a purpose in that regard. And 
I think it also serves as a unified presence so that people who 
are looking to do research and looking to develop programs 
about other aspects. You know, we just talked about a 
fragmented medical program. There are specific groups of people 
that may have been at the September 11th situation whose 
conditions or problems are similar to hurricane victims in 
Florida, and if there is someone in that medical community who 
is studying the effects on a group of school-aged children, you 
have the ability through the Registry to look at a comparison 
in that group.
    Therefore, people who are outside of that mainstream that 
we are looking at might be able to be looked at through the 
Registry.
    So it does serve a purpose. It is not the same as a 
monitoring program. We can't look at it to provide the same 
sets of information, but it is another tool to help us look at 
long-term patterns.
    Mrs. Maloney. As a followup to you and Dr. Levin, all of 
these individuals, all individuals are eligible to be part of 
the Registry, but area residents and school children are not 
allowed to be part of the Federal monitoring program. Does that 
make sense to you? Do you believe access to medical monitoring 
should be based on who you are or what you were exposed to? And 
I open it up to Dr. Kelly and Dr. Levin for any comments.
    Who you are or what you are exposed to, because you have 
all these programs, and they are limited. This is for this 
group of people. This is for that group of people. At the very 
least, the Registry is open to everyone, and again I just ask 
do you believe access to medical monitoring and treatment 
should be based on who you are or what you were exposed to?
    Dr. Levin. Well, I think it is clear that the exposures 
should be the key aspect of this, and I say that on the basis 
of real clinical experience. We have in our Center for 
Occupational and Environmental Medicine many patients who were 
not eligible for the monitoring program or the screening 
program, because they weren't responders. They were people who 
were required to come back to their employment in lower 
Manhattan sometimes within a week of September 11th, in part 
because the EPA said that air quality was safe, the employer 
said you have to come back to work or you don't have a job. I 
have patients who never had asthma before, who came back to 
office space within a week of September 11th that was 4 or 5 
blocks southeast of Ground Zero. Each day they would go from 
subway to their offices, walking through that cloud of dust and 
smoke and developed asthma, developed sinusitis, the same 
conditions that the responders developed.
    There is no access to a program for such individuals, and 
the same can be said of some of the community residents, who 
returned to their homes, their apartments; found themselves 
exposed; found their children developing asthma for the first 
time. Some of them had adequate insurance. Many did not. Many 
found it difficult to get health care. And it seems to me a 
public health response that is comprehensive, especially in a 
country that can afford to do this sort of thing, would entail 
making sure that all the affected people had an opportunity to 
be evaluated and taken care of.
    Mrs. Maloney. Any comment, Dr. Kelly?
    Dr. Kelly. Well, our particular group has always taken care 
of our fire department, so that has been our avenue of concern, 
and I suppose our exposure has placed us in the forefront of 
this event, because we again were the first there and the last 
to leave.
    So looking at our health patterns, I think helps other 
people see what their exposures were, because there were none 
in my mind greater than ours.
    And certainly the mental health, we have seen the trickle 
down effect not only to our first responders, but their 
families, so that it is clear that these effects were felt 
across the board, not just by the people there, but the people 
in that surrounding area.
    Mrs. Maloney. Thank you for your testimony.
    Mr. Shays. Thank you. Mr. Bethea and Mr. Vega, when you 
were working at Ground Zero, were you paid employees or were 
you volunteers?
    Mr. Vega. I worked for the city of New York, but I 
volunteered for that detail.
    Mr. Shays. So they were asking for volunteers, but you were 
being paid as a city employee.
    Mr. Vega. In lieu of going to our regular city job----
    Mr. Shays. Exactly.
    Mr. Vega [continuing]. That became our city job. Yes.
    Mr. Shays. Mr. Bethea.
    Mr. Bethea. I am a 911 paramedic, and in New York City half 
of the EMS system is run by the city fire department providing 
hospitals like Saint Vincent's----
    Mr. Shays. Well, let me ask you how long were you at the 
site?
    Mr. Bethea. I was there that day. I got buried by both 
towers that day, and then I went back on the 14th, the day the 
President came, and dug all day.
    Mr. Shays. So you were only the----
    Mr. Bethea. Two days.
    Mr. Shays. Just 2 days.
    Mr. Bethea. Two days. I got buried the first day, and then 
on the 14th. And you can hear this----
    Mr. Shays. And you, Mr. Vega, were there for 10----
    Mr. Vega. Ten months.
    Mr. Shays [continuing]. Yes 10 months. It is interesting 
for me to kind of sort how some people can be there for, you 
know, 10 months and be healthy and others 10 months and not, 
and then someone 2 days and not be healthy with just 2 days----
    Mr. Vega. If you had seen that site, you would understand. 
That site gave up plumes of toxic fumes from unpredictable 
spots. If you wound up being in that wind stream, you inhaled 
about 10 months worth. Or if you worked there 10 months and you 
were able to avoid the blue-greenish smoke as it came out of 
the hole, you were OK.
    Mr. Shays. Would you. Yes?
    Mr. Bethea. Again, it is just like, you know, in medicine, 
we have different routes at which you give medicine. And like 
take it--and given intravenously, that is the quickest way to 
get medicine. But if I take the medicine and rub a cream on you 
and it is absorbed through the skin, it will take an effect, 
but it takes longer. So you have to understand on that first 
day, when those towers came down, we got a massive dose of all 
the toxins that was in the air, because you got to remember, I 
mean I was literally white from head to toe----
    Mr. Shays. OK. So----
    Mr. Bethea [continuing]. And I was literally blowing out 
pieces of concrete out of my nose that day, so I inhaled a 
major--it was like--the best way to describe it was a big 
bucket of toxic dirt that I swallowed, and so that is why a lot 
of us who were there that first day got sick, because we were 
there when the towers came down.
    Mr. Shays. Well, which was leading into my first question I 
looked to my left. I looked to my right. I see this 
unbelievable picture of just, you know, 90 plus stories two 
times, plus another building, all in total debris next to the 
Statue of Liberty. There is something incredibly poetic or 
striking about that. But I have empathy for government 
officials that allowed you to be there the first day because 
you were hoping to save lives that day. But once it began that 
we were looking for body parts, I am just wrestling with how it 
is that we allowed this to happen. That is what I wrestle with 
and others. As eager as you are to get in there, you know we 
should have held you back. I am talking to Mr. Vega. We should 
have held you back.
    Mr. Vega. I thought that same thing many times. After the 
first 2 weeks, there should have been a stop, hold, let us 
rethink this. I understand what it was like to go in there 
looking for bodies and try to save people. A lot of the 
engineering feats we did on that site were to save people. But 
after 2 or 3 weeks, pretty much all hope was lost, and there 
should have been a step back. Let us look at this.
    Mr. Shays. But then I am struck by that fact that in 10 
months, you all did what some people said was going to take 2 
years. And you got that out of the downtown Manhattan and out 
of the center, so, in a sense, lots of lives were saved, 
because we could have just let that thing smolder for years, 
and it would have just been spewing out all the caustic things 
it did.
    Ms. Bascetta, as Director of Health Care, tell me your 
background, your expertise?
    Ms. Bascetta. My expertise is in public health. And before 
I worked in this area, I spent about 8 years looking at 
veterans' health care and disability compensation.
    Mr. Shays. So I guess as you are doing this study, I am 
curious if you said, my God, how is it that we allowed this to 
happen? I mean I am in the outside looking in. I am not a 
medical professional, but I know we would never have allowed in 
downtown Manhattan to have a landfill, a burning landfill. I 
mean so and we wouldn't, because it would be highly dangerous.
    So this thing is highly dangerous, and it was highly 
dangerous for nearly 10 months. But what I am wrestling with is 
why we didn't tell people they had to go in in suits and total 
protective gear, and if you couldn't work in that condition for 
8 hours, maybe you worked for 2, and we just kept bringing new 
people in, and you had 2 hours on, 2 hours off, and so on.
    Tell me if you had any of these emotions when you were 
doing this study? Or in thinking about it now?
    Ms. Bascetta. Well, I used to work for the Occupational 
Safety and Health Administration.
    Mr. Shays. Pardon me?
    Ms. Bascetta. I worked for the Occupational Safety and 
Health Administration, and so as a person with that background 
when I was watching as a citizen, I was very concerned about 
the exposures of people who would be engaged in recovery 
operations. But I have to say I mean I think everyone was 
overcome by the emotion of the time. It was unprecedented. You 
know there are lots of problems fitting personal protective 
equipment, particularly on a scene like that. It would have 
absolutely slowed things way down, perhaps appropriately.
    You know I think we need to step back for a moment and ask 
why our preparedness overall is a problem, and I think that 
part of it is that we don't think before an event about what we 
need to do and what we need to be concerned about. We didn't 
think, you know, from the first day about what we needed to do 
to prevent the people who were going to go in and do the 
recovery operations. We didn't think about----
    Mr. Shays. But there wasn't even one person?
    Ms. Bascetta. Well, we didn't think systematically. I mean 
we had----
    Mr. Shays. Yes. I guess what I would be interested is I 
would love to have a hearing with that person who said, you 
know, I was saying this and no one was listening. Then I would 
like to know why no one was listening. It had to have been 
somebody who said this is about the craziest thing in the 
world.
    Ms. Bascetta. Yeah.
    Mr. Shays. And, you know, the Congress included. Me 
included.
    Ms. Bascetta. Well, I am asking.
    Mr. Shays. All of us. I mean I think about it now, and I 
just--well----
    Ms. Bascetta. Well, I am asking myself now whether we are 
repeating something in a different situation in New Orleans, 
where we have workers engaged in recovery operations there who, 
you know, under the National Response Plan, OSHA has an 
obligation to assure that they are provided with equipment to 
make that job as safe as possible, and EPA has done some amount 
of monitoring. I hear anecdotally that, you know, there are 
disputes about the EPA measurements.
    I mean it seems to me that several years from now, we could 
be in a similar situation were we have some other kind of 
Katrina-related health effects, and we haven't proactively 
dealt with that either.
    Mr. Shays. Help me, Dr. Levin, Dr. Kelly, wrestle with the 
issue of Mr. Vega and this is a hearing from the people at the 
front here, sir. You can speak to any Member afterwards. We 
would be happy to talk with you. Thank you.
    Let me ask you is there anyone in this audience that was 
involved in the clean up site, if you would raise your hand, is 
anybody here?
    [Show of hands.]
    Mr. Shays. OK. We may invite one or two of you to come up 
afterwards, so we will see about that. All right?
    What is the point of monitoring for monitoring's sake? Let 
me ask you this, Mr. Vega: what kind of health care are you 
getting right now?
    Mr. Vega. Whatever my city health insurance can offer me. 
It is almost like a catch 22. You can't claim you were hurt at 
Ground Zero, otherwise you got to go to workers' comp, and 
otherwise you have to take time off from work. I can't afford 
any of those.
    So now, you wind up going to your regular doctor who has no 
training in this kind of toxic exposure. When I give him my 
test results and show the high mercury and the high arsenic, he 
had no idea what to do. There was not any doctor in his whole 
service, provider service, that could deal with this. I just 
had to sit back and get a bunch of these. And this is what I am 
on--albutyrol and nebulizers.
    Mr. Shays. But that may not be helping you.
    Mr. Vega. This is all I have. This is all I have. I hear 
now----
    Mr. Shays. I mean I don't want to continue a program that 
is going to continue with what you are doing. I want you to get 
help.
    Mr. Vega. Well, that is what we are asking you to do, to 
continue a program and offer some treatment component with the 
Mount Sinai situation. That would be the best thing.
    I mean I am a city worker recovering from Ground Zero 
contamination, but I am using my regular city services. It is 
crazy. There should be some kind of like medical consortium 
saying let us attack what happened at Ground Zero. Let us put 
all these people together and find out how to help them, like 
we just came out of some toxic disaster, and you want to make 
sure we don't contaminate anybody else. There should have been 
some way to say look, let us take care of these people, not 
because they are nice people, but because you are probably 
going to need them tomorrow.
    I mean we really feel like we have been abandoned here. We 
were sent back to our city jobs. Go back and design your 
libraries and your churches and your firehouses and go back to 
your life as normal. It was us being proactive that said, no, 
we need debriefing. We need mental health services. We need you 
to put everybody that came back. I mean 1 day coming back from 
that site, you just can't go back to your regular job. You 
can't think of anything. You are frozen. Really, your mind is 
still not opened up yet. So we had to be proactive. We had to 
beg people to send therapists and counselors to our office 
sites so that when 60 guys came back, they sat at a lunch 
period, and everybody got kind of debriefed a little bit, and 
were reached out to. And there are still members of my--in my 
agency that have not had one ounce of therapy. And they are 
hurting, and I can see it in their faces, and they are just 
trying to go on blindly day by day. They look like they are 
lost souls. I can't reach them yet. But maybe if we start 
talking about the fact that it is really out there, and we 
really reach out to Mount Sinai and say Mount Sinai instead of 
you asking me how many body parts did I see in the 10 months I 
was there, 10 seconds after that send me to a therapist; that 
will work.
    I tell you sometimes I go through those questionnaires, and 
I need more therapy than when I went in. It is amazing. It is 
amazing. It is sort of like anecdotally, well, you know, the 
first 10 days how many body parts did you see. OK. About the 
next 10 days. It was like that. Those are the questions that 
are in these programs, and I help as much as I can. I answer 
everything honestly, but don't ask, well, you know, can you 
have me talk to somebody now. He said, well, we will make an 
appointment for you. We have a whole set of services here we 
can provide for you, but you know you need the help right then 
and there when you open up those wounds.
    These are the kinds of things that we are dealing with. And 
we are going about our business. We are doing our city work. I 
mean when the wall collapsed on the Henry Hudson Parkway, we 
were there. OK. The blackout in New York, we were there.
    We are still jumping to the call. We are still answering 
the call. We are just maybe taking a step longer to get there.
    Dr. Levin. I think what Mr. Vega is talking about points to 
some of the very real problems of setting up a monitoring 
program without a treatment program aspect to it, because we 
found ourselves in the situation until we got some 
philanthropic funding of identifying people who really needed 
care desperately and having no resources available to provide 
that care. And the point that he makes about the workers' comp 
system, and it is not just taking off from work. It is also 
then finding the New York City Law Department, because the New 
York City is a self-insured entity, fighting these cases tooth 
and nail, and every city worker who has gone through this 
workers' compensation process knows just how difficult it is 
made for them and how insulting a process it is and people talk 
to each other. And so what Mr. Vega does is what so many 
workers have done and said, I am not going into that system, 
even though it is set up presumably to take care of people for 
that purpose, because it is too difficult. It is too insulting, 
and the end process is too far away for me to get care.
    For claims that are filed in workers' comp for World Trade 
Center-related illness, we have seen people wait 2\1/2\ and 3 
years before their claims are resolved. During that period of 
time, who's providing the medications? Who is providing the 
support for additional testing that is necessary? The workers' 
comp carriers, the insurance companies, and in this case the 
city of New York was not, so people were left to their own 
devices. We did get some philanthropic funding. That made it 
possible for us to take care of some of the people that we 
identified through our screening program who needed care. 
Marvin is an example of that.
    Those funds we had to go hat in hand to those philanthropic 
organizations and say please we have people who are sick. Can 
you give us funding so that we can take care of them, because 
there was nothing systematic set up to make sure that they were 
cared for.
    It is good to hear that $125 million is now restored to New 
York. But frankly, even though the efforts were successful and 
we are deeply grateful that it is happening, it is a backdoor 
way of taking care of what should have been a governmental 
response to a public health problem that was caused by an 
attack on this country that these people responded to. There 
has never been up to this time a systematic and comprehensive 
approach to how to take care of people like Mr. Vega, who 
desperately need care, and some of his concerns about what his 
life is going to be like might be helped by such care, but, in 
fact, no programs have been funded by the Federal Government or 
any other level of government to make sure that people are 
taken care of.
    Mrs. Maloney. I thank the chairman for yielding, and 
request permission to place in the record the ``Findings and 
Treatment for High Levels of Mercury and Lead Toxicity.'' This 
is a paper put forth by Dr. KOKi and Claire Haaga Altman, who 
is president of the project Olive Relief, and I request to 
place it in the record.
    Mr. Shays. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8531.072
    
    [GRAPHIC] [TIFF OMITTED] T8531.073
    
    [GRAPHIC] [TIFF OMITTED] T8531.074
    
    [GRAPHIC] [TIFF OMITTED] T8531.075
    
    [GRAPHIC] [TIFF OMITTED] T8531.076
    
    [GRAPHIC] [TIFF OMITTED] T8531.077
    
    [GRAPHIC] [TIFF OMITTED] T8531.078
    
    [GRAPHIC] [TIFF OMITTED] T8531.079
    
    [GRAPHIC] [TIFF OMITTED] T8531.080
    
    [GRAPHIC] [TIFF OMITTED] T8531.081
    
    [GRAPHIC] [TIFF OMITTED] T8531.082
    
    [GRAPHIC] [TIFF OMITTED] T8531.083
    
    [GRAPHIC] [TIFF OMITTED] T8531.084
    
    [GRAPHIC] [TIFF OMITTED] T8531.085
    
    [GRAPHIC] [TIFF OMITTED] T8531.086
    
    [GRAPHIC] [TIFF OMITTED] T8531.087
    
    Mrs. Maloney. Many people wanted to testify today. We did 
not have room for the panel, but I would like to ask a question 
to Drs. Levin and Kelly about my constituent, Mr. Vega.
    He just mentioned he has high levels of mercury and lead. 
What is the treatment, if any, to remove these terrible items 
from his body? What is the treatment to remove mercury and lead 
from our firefighters and our Mr. Vegas and our Marvin Betheas?
    Dr. Kelly. One of the issues is that you have to test the 
correct way. If you do blood testing for mercury, you may get a 
false elevation. You need to check urinary mercury, again 
because we had been doing this beforehand with our HAZMAT 
units, we had known this fact so that when we set up our 
medical monitoring, we set up our program so that we did test 
that way, and we worked with NIOSH and CDC to send off for many 
of the unusual heavy metal and toxins that might be seen at the 
site so that in our overall numbers, we had very, very few 
people that had high mercury, because we did that the correct 
way.
    At one point, there was a problem because they had been 
done incorrectly and there was a concern raised about mercury 
at the site, but then when the retesting was done correctly 
using urine mercury, it was realized that was sort of a false 
positive. So that we did not run into that type of a heavy 
metal problem with our particular group.
    Mrs. Maloney. But if you did, Mr. Vega has tested high in 
mercury and lead and others have, and assuming that they have 
been tested----
    Mr. Shays. Just lead. Just take lead.
    Mrs. Maloney. Take lead.
    Mr. Shays. How do you get it out?
    Mrs. Maloney. How do you get it out of their bodies? How do 
you treat them if they have these particles in them?
    Dr. Levin. There is a standard treatment for lead 
poisoning, and it involves what are known as chelating agents. 
We have a long history in occupational medicine of taking care 
of individuals who have lead toxicity, ranging from iron 
workers to people who are exposed to lead in paint, in battery 
manufacturing. So we have very well standardized approaches for 
testing for lead poisoning, as Dr. Kelly mentions, as well as 
the treatment of it, and there used to be an intravenous 
treatment with what is known as EDTA. Now we can use an oral 
agent, known as Succimer, or DMSA. These are compounds that 
bind to the metals and enable them to be cleared in the urine 
by the kidneys. That is true of mercury as well. There are 
particular treatment agents that can remove inorganic mercury, 
not the kind of mercury that is present in fish, but the kind 
that comes from exposure in industrial circumstances or other 
environmental circumstances. When these levels are genuinely 
elevated in the body, we do have treatments that can be 
effective.
    The question that I have, and I don't know about Mr. Vega's 
individual case, and maybe we will have an opportunity to talk 
after here.
    Mrs. Maloney. Let us ask him right now. Mr. Vega, have you 
gotten any of those treatments?
    Mr. Vega. As I have stated, once I went to my primary care 
giver through the city agencies. They had no professional 
provider to deal with this issue.
    Mrs. Maloney. You have gotten no treatment for your high 
levels of lead.
    Mr. Vega. No, we did everything we could. We went to the 
Indian herbal treatments--Ayurveda, 2000-year-old treatments. 
We have taken herbs. We have been taking--we have been going 
to--I am just----
    Mrs. Maloney. But you never had the treatments that Dr. 
Levin just described?
    Mr. Vega. No. No medical treatment. Any person who wanted 
to help us, try to get us healthy any way they can, we tried. 
And some of them are not as present as others, and we have 
tried everything we can, because there is nothing else out 
there. We are that desperate.
    So we have been proactive. We have been proactive medically 
and proactive with mental health issues, but we were told 
pretty much there was nothing else out there, even at Mount 
Sinai. We just had monitoring, and no treatment, so what else 
could we do?
    Dr. Levin. I make an open offer. All right. That you and 
your colleagues might bring the medical records to us. Let us 
have an opportunity to take a look. See if we are in agreement 
with whether the right testing has been done. If, in fact, we 
find elevations of metals among any of your colleagues, we 
would be pleased to offer the best that we know how to offer in 
the way of treatment, if, in fact, there are problems along 
these lines.
    Mr. Shays. Yes, I mean with all due respect, I mean 
monitoring is OK, but I would rather you put your resources 
here.
    Well, let me do this: I just want to make sure the 
professional staff covers one or two issues that we need to 
just put on the record for our report.
    Ms. Fiorentino. Ms. Bascetta, your testimony talked about 
the lessons learned in the aftermath of 9//11, including the 
need to quickly identify and contact people, the value of a 
coordinated approach, the importance of monitoring both 
physical and mental health and the need to plan for providing 
referrals for treatment. In the work that you have done and the 
work you are currently doing on Hurricane Katrina, have you 
seen any steps the government has taken to apply the health 
monitoring lessons learned from September 11th? And then 
second, do you feel that health monitoring programs are being 
included in disaster planning?
    Ms. Bascetta. Unfortunately, I have to say that we are not 
aware of any of these lessons learned being applied in New 
Orleans or in the other Gulf Coast States.
    With regard--your second question again? I am sorry.
    Ms. Fiorentino. Are health monitoring programs being 
included in disaster planning as far as you know?
    Ms. Bascetta. Again, you know, we are engaged in a review 
now of the NRP and other preparedness plans, and we are not 
aware of a proactive approach to health monitoring.
    We are aware that under the NRP, OSHA has an obligation to 
protect first responders. We are aware that, EPA has a role in 
measuring the levels of toxic exposures that first responders 
may experience, but we don't see any mindset to set up--to have 
a plan in advance for who will be accountable for establishing 
and following through with medical monitoring if it is needed.
    Dr. Kelly. When we sent firefighters to Katrina, we had 
volunteers that went in cycles of every 2 weeks. We ensured 
that before they went, everyone had the protective vaccinations 
that they needed, including tetanus, Hep-A, and our members are 
already protected against Hep-B; therefore, we didn't let 
anyone go unless we had proven record that they had received 
their shots and that it had taken. We made sure that they 
brought their PPE with them, and when they returned, we made 
sure they all had a followup medical evaluation. We have marked 
their charts to recognize that they had that Katrina exposure, 
and we will continue to monitor them when they come for their 
annual exam with that set of information. So as an agency, we 
are able to do that based on our prior exposure at September 
11th and as a proactive effort as they went out to Katrina.
    Ms. Fiorentino. Thank you very much.
    Mr. Shays. Is there anything that any of you would like to 
put on the record before we get to our next panel? Any last 
comment?
    Yes, Mr. Bethea?
    Mr. Bethea. You really need to look at the workers' comp. 
It is totally out of control. Case in point: my hospital 
statements since--in 2002, every year you have EMS physicals in 
May. The hospital gave myself and the five others who were down 
at Ground Zero, we all received plaques as well as we got a 
citation from the New York City Council.
    The event was on television. It was in the hospital 
newsletter. They made a whole big to do about it.
    Last year, at a workers' comp hearing, the lawyers 
representing the hospitals got up in court and said to the 
judge, Your Honor, nothing for nothing. How do we know Mr. 
Bethea was actually down there? And if he was down there, what 
was he doing down there?
    Now, they inquired to me in the hospital. It was already 
acknowledged that I was there. They gave me an award, but yet 
they were allowed to go into court and argue or raised this 
issue on whether or not I was down there. We all know it was a 
lie.
    Mr. Shays. Mr. Bethea, that is not a racist issue. I mean 
that was----
    Mr. Vega. Raised this issue.
    Mr. Bethea. Raised. Raised. Raised. Raised. Raised.
    Mr. Shays. Raise the issue. Oh I am sorry.
    Mr. Bethea. I am sorry. I said raised the issue. Oh, I am 
sorry.
    Mr. Shays. Yes.
    Mr. Bethea. Oh, I am sorry. So I got the sinusitis. I am 
all stuffed up now. I apologize.
    Mr. Shays. I apologize. I heard you incorrectly.
    Mr. Bethea. Yes, it was a raised issue, and now, it is 
totally nonsense. I mean you have a right to defend your 
client, but to make a blatant lie like this, as Dr. Levin has 
said, you know, they harass you so much and humiliate you, 
people don't want to go through that. And so this $125 million, 
if the workers' comp system was better that money would have 
never gotten taken away from us, because we would have had 
access to it. You can't penalize us for money that we don't 
have access to. I can't get money if you never give me a chance 
to get that money. So what they should do is seriously look 
into the workers' comp system and what is going on with it, 
because it is an absolute disgrace. And people just don't want 
to be humiliated anymore, and they are constantly denying 
claims. Well, that was just one example. There are hundreds of 
stories, of horror stories, and that needs to be addressed. And 
I got to commend you for taking the time to listen to us about 
what we have to say and what is really going on with September 
11th, and they should use this as a model to not to make the 
same mistakes down in Katrina, but unfortunately, they will.
    Mr. Shays. Thank you. Thank you for your comment and thank 
you for being here. Anyone else?
    Ms. Bascetta. I would just like to add that I think that 
Dr. Kelly's comment is illustrative of the facts that we do 
have very different organizations that respond very 
differently, and if we can learn from those who are better 
positioned and who do take a proactive stance, and include some 
of those principles in planning and our various government 
levels--Federal, State, and local--we will all be better off.
    Mr. Shays. OK. I wanted to close this, but I am going to 
ask you to react to what I am going to say.
    And I am going to leave a lot out. But, first, I am going 
to ask this question: Was this the responsibility of the State 
health department, the local health department, the local 
environmental protection folks, the State, or the Federal 
health and environmental to have basically taken control of the 
site and looked out to protect the workers? Which level of 
government should have been the one taking charge? Dr. Levin.
    Dr. Levin. I think the primary responsibility is with the 
Federal Government because it has the greatest resources 
available to it to develop a comprehensive public health 
response. I don't mean by that the State agencies, the public 
health agencies at the State level and city levels shouldn't be 
integrated into such a response. But the Federal Government has 
the greatest capacity to do monitoring and to set up the kind 
of programs that do early detection of health problems that 
might result from such disasters.
    The lack of that kind of overall coordination had real 
consequences for what happened at this site and during the 
ensuing really year and a half up to the present time. And it 
seems to me that the Federal Government is the site where the 
resources are greatest and the best opportunity exists for 
setting up a comprehensive plan.
    Mr. Shays. Anybody disagree with that? OK. Let me ask you 
this, though: Isn't it true that any one of the three could 
have shut the site down and said you can't go in here until you 
have proper protection of the workers?
    Dr. Levin. I don't know what the legalities of that may be 
as to where that power really resides within the law. I know 
certainly the Federal Government could have declared this a 
site that was hazardous waste site, for example.
    Mr. Shays. Well, the State could have as well. Ms. 
Bascetta? You don't know?
    Ms. Bascetta. I don't know. I mean I think when it was the 
first battle in a war, and for those of us who were there, that 
was our feeling, that this was a war. And it was a war zone 
that held the remains of people that were beloved by all of 
those who had suffered losses. And when there are any attempts 
to even close down the site for a night, there was a protest by 
our members because they felt an obligation to be there to 
remove those who were missing, and those who had died.
    There was active fire at the scene until mid-December.
    Mr. Shays. OK. If health care folks who had the expertise 
had an obligation as well. They had an obligation, and I want 
to know where they were? You know. They had an obligation on 
the local, State, and Federal level. They had the expertise. 
They were down there, and it is pretty amazing to me.
    In a perfect world, react to this--I guess what I am trying 
to--we are going to try to come out with recommendations as a 
subcommittee, and I am just wanting to understand. It seems to 
me you have the event. You were going to have a few days of 
just rescuing the workers. You are just going to do 
everything--of rescuing people that possibly someone might be 
alive, even though I think there was a feeling, you know, that 
was very unlikely, but you just keep at it until you are pretty 
convinced that there is no one alive.
    But at that point, it seems to me there should have been 
the Federal Government, the State government, and local 
government, the health people should have basically shut the 
site down. They should have then made a determination who could 
work in there and on what conditions. And I can see that there 
are tradeoffs between the health of the workers and the health 
of the entire city in terms of it being a condition that you 
needed to clean up as quickly as possible. So you were going to 
have some tradeoffs. But I am struck by the fact that in terms 
of some kind of model, someone takes control, someone tells the 
workers in going, someone decides what kind of equipment, how 
long they should be there; maybe they should only be there for 
a few weeks, and then you bring in another group.
    I mean it strikes me that is the kind of process that 
should take place, and I don't have any conviction that is 
happening.
    So what I am going to probably do for this hearing is we 
are going to bring in the folks that can explain what you do in 
an emergency and what we should do. And maybe since then, there 
are people who put their heads together and figured this out, 
and we just don't know about it. So. Thank you all very much, 
and we will get to next here.
    I said that I would maybe consider having a third panel. So 
this panel is adjourned. Thank you very much.
    Raise the hands of the people who would like to address 
this subcommittee? You have one, two people. OK. We will have 
you both address the subcommittee after the third and fourth. 
No more than five, but we will allow a third panel. We will 
swear you in. We will sign you up, but not right now. We will 
go to our second panel. And that is Dr. John Howard, Director, 
National Institute of Occupational Health, Centers for Disease 
Control and Prevention, Department of Health and Human 
Services. You can stay standing, Dr. Howard.
    Do you have anybody else, Dr. Howard, that might be 
responding to questions with you?
    Dr. Howard. No.
    [Witness sworn.]
    Mr. Shays. Thank you very much for your response, which was 
in the affirmative. And, Dr. Howard, we welcome your testimony.
    I am going to ask that you go down and sign up in the back. 
I am going to ask our staff to go to that table over there and 
anyone who wants to address this subcommittee can go over 
there, and we will fill out your names and address and so on.
    Actually, Bob, I am going to have you do that. Right over 
there. So this gentleman here, if anyone wants to address the 
subcommittee on the third panel that we will--do know that you 
will be sworn in and anything you say before the subcommittee 
will have to be the truth.
    Dr. Howard, what would you like to tell us?

  STATEMENT OF JOHN HOWARD, M.D., M.P.H., DIRECTOR, NATIONAL 
 INSTITUTE FOR OCCUPATIONAL SAFETY AND HEALTH [NIOSH], CENTERS 
 FOR DISEASE CONTROL AND PREVENTION, U.S. DEPARTMENT OF HEALTH 
                       AND HUMAN SERVICES

    Dr. Howard. Good afternoon, Mr. Chairman, and members of 
the subcommittee.
    My name is John Howard. I am the Director of the National 
Institute for Occupational Safety and Health, part of the 
Centers for Disease Control and Prevention within the 
Department of Health and Human Services.
    I am pleased to report on the screening and medical 
monitoring of World Trade Center responders, development of a 
new treatment program for responders, and to give you a brief 
report on the World Trade Center Health Registry.
    In 2002, as you know, Congress provided funding through 
FEMA for baseline health monitoring of responders. CDC 
partnered with the New York City Fire Department, the New York 
State Department of Health, and the Mount Sinai School of 
Medicine to conduct baseline medical screenings.
    The symptoms identified in these screenings, such as the 
``World Trade Center cough,'' as we have heard about, prompted 
the development of a medical monitoring program to assess long-
term health effects.
    This program consists of a consortium of clinical centers, 
together with data and coordination centers, to provide 
standardized clinical and mental health screening, patient 
management data, and clinical referral services.
    One center is operated by the New York City Fire Department 
for firefighter responders, and the others are operated by 
Mount Sinai for responders within and outside the New York 
Metropolitan Area.
    All these responders receive the same examination utilizing 
a standardized protocol.
    Since 2002, the Monitoring Program has served more than 
30,000 responders, and as of February 2006, the Fire Department 
and Mount Sinai both have conducted nearly 19,000 screenings, 
approximately 75 percent of them being initial examinations and 
25 percent being followup.
    The clinical data is analyzed regularly, and in September 
2004, the program published data showing that the majority of 
screen responders reported experiencing upper and lower 
respiratory symptoms, along with musculoskeletal and 
gastrointestinal symptoms.
    These clinical findings, I stress, that are the same 
clinical findings we saw in the early program are being seen in 
2005 and 2006, and highlight the need for a long-term medical 
monitoring and treatment program.
    In March 2003, FEMA and HHS completed an interagency 
agreement allocating $3.7 million to have the Federal 
Occupational Health Service conduct baseline medical screening 
for Federal responders. The program began in June 2003, but by 
January 2004, as has been reported, FOH halted the screening 
process, because they too identified the need for more robust 
mental health screening protocols, the need for other 
diagnostic tests, and the need to have a referral mechanism for 
health concerns identified during the screening.
    In addition, it also became necessary to identify the 
administrative authority to provide services to former Federal 
employees, including retirees and those were Federalized for 
the time of the World Trade Center experience.
    The agreement was modified in July 2005 to address these 
mental health diagnostic testing and referral concerns and the 
screening resumed in December 2005.
    However, since the FOH mission precludes them from 
conducting screening for former Federal workers, a decision was 
made to contract with NIOSH World Trade Center program to 
provide a single baseline screening for former Federal workers.
    To date, of the $3.7 million allocated for this program, 
$2.2 million has been obligated to Federal Occupational Health 
for the purpose of screening current Federal employees and for 
outreach and registration management. The remainder of this 
fund will be allocated to the NIOSH program for the purpose of 
screening former Federal employees.
    Since restarting the program for Federal workers, 135 
Federal agencies have been contacted, and approximately 1,700 
individual Federal responders have been identified out of an 
estimated population we believe of around 5,000.
    Of those responders identified, 423 current, 40 former, and 
12 retired Federal employees have registered for screening and 
of these registered responders, 166 have been screened; 250 are 
awaiting screening.
    To ensure the continued screening and treatment of World 
Trade Center responders, Congress recently appropriated $75 
million to CDC for treatment; $50 million was appropriated for 
the Uninsured Employers Fund. A portion of these funds will be 
used to establish a World Trade Center Responder Treatment 
Program to support existing monitoring programs and to fund 
program needs identified by the World Trade Center responder 
community such as the New York City Police Foundation Project 
Cope, as well as the police organization providing peer 
assistance.
    Also appropriated funds will be directed to support the 
World Trade Center Health Registry, which began baseline data 
collection September 5, 2003, and finished 71,437 interviews on 
November 20, 2004.
    Registrants will be interviewed periodically through the 
use of a comprehensive and confidential physical and mental 
health survey. The first followup interviews are scheduled to 
begin next month, and will last approximately 6 months. 
Information about the Registry's finding is posted quarterly on 
their site at www.wtcregistry.org.
    Thank you very much, Mr. Chairman. I would be happy to 
answer any questions.
    [The prepared statement of Dr. Howard follows:]

    [GRAPHIC] [TIFF OMITTED] T8531.088
    
    [GRAPHIC] [TIFF OMITTED] T8531.089
    
    [GRAPHIC] [TIFF OMITTED] T8531.090
    
    [GRAPHIC] [TIFF OMITTED] T8531.091
    
    [GRAPHIC] [TIFF OMITTED] T8531.092
    
    [GRAPHIC] [TIFF OMITTED] T8531.093
    
    [GRAPHIC] [TIFF OMITTED] T8531.094
    
    [GRAPHIC] [TIFF OMITTED] T8531.095
    
    [GRAPHIC] [TIFF OMITTED] T8531.096
    
    [GRAPHIC] [TIFF OMITTED] T8531.097
    
    [GRAPHIC] [TIFF OMITTED] T8531.098
    
    [GRAPHIC] [TIFF OMITTED] T8531.099
    
    [GRAPHIC] [TIFF OMITTED] T8531.100
    
    Mr. Shays. Thank you. Mrs. Maloney.
    Mrs. Maloney. Thank you very much, Dr. Howard, for your 
testimony today. A great number of us have waited a long time 
to have one particular person in the Federal Government to 
direct our questions about September 11th health emergency, and 
we are thrilled with your designation, and I join my 
colleagues, Mr. Fossella and Mr. Shays, in congratulating you 
on your new job.
    But I do have a series of questions, and first of all, do I 
have your word that we will finally have a coordinated Federal 
response to the September 11th health emergency, including a 
plan from your office on how to fully monitor and treat 
everyone affected and sick?
    Dr. Howard. I am certainly going to try to bring 
consistency across, as you have said and several others today, 
for all exposed workers. That is my first priority, based on 
their exposure, not based on the particular system that they 
happen to be receiving there--either screening, monitoring, or 
in the future treatment care from.
    Mrs. Maloney. And when can we expect to see your 
recommendations and plan of how you are going to run this new 
outreach in response to injured workers and responders?
    Dr. Howard. Well, I hope very soon. In fact, I have already 
contacted the acting director of the Federal Occupational 
Health Service. She and I will be meeting to look at that 
issue, which has, I know, as GAO reported and as you and the 
committee have pointed out, is an issue that we need to 
address.
    Mrs. Maloney. And in your testimony, your testimony reports 
that the majority of World Trade Center responders 
participating in the World Trade Center Medical Monitoring 
Program have experienced health problems that have continued 
until today. And you go on to say that these trends highlight 
the need for a long-term health monitoring program. And how 
many years are you talking about for a health monitoring 
program?
    Dr. Howard. I think I would agree with Drs. Kelly and 
Levin. Our experience as occupational physicians teach us that 
many conditions--dust diseases of the lung, which were referred 
to already this afternoon, like asbestos exposure--have 
significantly long latent periods.
    So I think even though we have been doing incremental 
budgeting for these types of programs, and we are very happy to 
be able to be in a position now to administer a treatment 
program that will get at that issue and also continue our 
monitoring program, I think we have to look seriously at our 
vision for the future in terms of looking at that kind of 
timeline.
    Mrs. Maloney. Could you give me a specific number of years. 
We are funded for 5 years. Do you think this monitoring should 
be 20 years or, as Dr. Kelly and Levin said, it should be 30 
years?
    How many years are you talking about?
    Dr. Howard. Well, I certainly agree from the medical 
standpoint that these long latent diseases require us to think 
in that kind of timeframe. At the present time, I think we have 
to look at all of our findings, both from our monitoring 
program, as well as from our registry program, and titrate, if 
you will, those needs based on time as we go through the next 4 
to 5 years.
    I think we are at the point of producing significant data. 
Our clinical data management centers have that job. And I hope 
within the next 12 to 24 months that we see good statistically 
valid studies on these issues so that we are able to plan for 
these long-term periods of time that you and others have talked 
about--the 10, 20, and 30-year timeframes.
    Mrs. Maloney. I am glad you are thinking about 10, 20, 30-
year timeframes.
    Mr. Shays. Would the gentlelady yield 1 second?
    Mrs. Maloney. Yes. But may I ask one question real quick to 
followup? What I think is very interesting is that the 
statistics that are coming from the World Trade Center 
Consortium, the fire fighters and fire fighters and officers 
research, and others, they are consistently the same: half the 
people they are looking at are sick. For some reason, half are 
immune to the problems, in all of these studies, if you look at 
them, half of the people that they looked at are sick.
    And in a sense, I don't think we need to reinvent the data 
that you talk about, because that is what they have been 
releasing, and I monitor this very carefully. This is the third 
hearing that we have had. Consistently, they are showing half 
the people are sick, and I yield to my colleague, the chairman.
    Mr. Shays. I just want to be clear as to what is the point 
of monitoring someone for 20 or 30 years? What is the point? 
Tell me the point.
    Dr. Howard. Well, I would say the simplest point is that 
some conditions take time to show themselves clinically.
    Mr. Shays. Then what?
    Dr. Howard. In terms of the condition or?
    Mr. Shays. So we have this great graph of how people got 
sick 20 years later from some disease, I want to know what is 
the point.
    Dr. Howard. I would approach it from the population that 
was originally exposed, which we know to number some 30,000 to 
40,000 people, whatever category they are in, whether they are 
responders or residents.
    Mr. Shays. You need to say it differently. I already know 
the answer to how I would answer the question. I am interested 
to know how you will answer the question. What is the point of 
monitoring someone for 20 or 30 years.
    Dr. Howard. I think in terms of a registry, where you are 
monitoring a large population, one answer is to get at the 
prevalence of a particular condition in that population. So 
population monitoring I think I would contrast with individual 
monitoring. The registry is doing population monitoring. The 
screening and monitoring program----
    Mr. Shays. What is the point of monitoring someone?
    Dr. Howard. To look for conditions and also the knowledge 
that we accumulate day by day, month by month, in terms of 
those aspects that Dr. Levin talked about of prevention so that 
we could detect at the earliest possible stage, the existence 
of a condition and intervene as early as possible----
    Mr. Shays. Yes.
    Dr. Howard [continuing]. To prevent the condition from 
worsening or manifesting itself and harming the individual.
    Mr. Shays. Right. Well that is, to me, the bottom line, the 
key in the whole reason why we would do this. And what I leave 
this hearing is feeling like we have done a lot of monitoring 
haphazardly, but not a lot of intervention, and certainly not 
very helpful intervention.
    Do you view it as your job to be in charge of the 
monitoring and in charge of making sure that there is 
intervention?
    Dr. Howard. I think the real value that we are approaching 
right now, with $75 million, able to develop treatment programs 
I think is really crucial to that question. And I think we are 
at a very important time in the development of these programs.
    Mr. Shays. So is the answer yes?
    Dr. Howard. Yes.
    Mr. Shays. Thank you.
    Mrs. Maloney. Thank you, Mr. Chairman, and, Dr. Howard, I 
was pleased with your statement that you believe that medical 
monitoring should be based on exposure and should include 
residents, school children, whoever breathed the debris, not on 
what hat you were wearing, whether you were the police or the 
fire, but whether you breathed the items or not. Is that clear? 
Do you think it should?
    Dr. Howard. Well, it may not be absolutely what I meant. 
What I meant to do is to suggest in terms of the most exposed 
population, which were responders at Ground Zero, many of whom 
spent months and months at Ground Zero, the most exposed 
population I think from 2002 to the present we have developed 
screening programs, monitoring programs, and now treatment 
programs for that population. The Registry was set up in order 
to look at that population. The greatest majority of those 
71,000 interviews have been done in residents of the lower 
Manhattan area and other areas of New York City--school 
children, office employees who work there, but were not 
residents, or responders. So the information that we are going 
to get from the Registry I think would go to that latter issue 
that you just raised with regard to the need for screening and 
or monitoring for residential exposure, if you will, in lower 
Manhattan. So I just wanted to make that clearer.
    Mrs. Maloney. Well, personally, I think everyone should be 
included, but going back to your statement and pleasure with 
the $75 million, and we are thrilled. That was a long effort by 
the workers, the unions, and Members of Congress to get that 
funding in the budget, and we are thrilled that it is now going 
to provide some treatment. But do you believe that it will 
provide for all of the unmet needs of individuals who are still 
sick from September 11th? We heard from two of them today. And 
will you make recommendations within your budget for adequate 
funding? Up until this hearing, the initiative has come from 
Congress to ask the administration, and we are grateful for 
your appointment today. We are grateful for the $90 million 
that has been allocated for the Consortium monitoring. We are 
grateful for the money for the fire monitoring and treatment. 
We are grateful for all this, but what many of us would like to 
see is your department requesting the money and the proper 
funding for the treatment and the long-term monitoring. I 
believe Drs. Kelly and Levin testified $305 million.
    My question is, how are we going to fund this? Will you be 
requesting it in the administration budget? Will you be pushing 
for this funding from your side of the aisle? We are pushing 
with you. Let me tell you.
    Dr. Howard. I think in answer to your first question is no. 
Based on what I have heard, what I have seen the last few years 
participating in the NIOSH program at the World Trade Center 
and Mount Sinai and with the Fire Department of New York City, 
no. There appears to be quite a number of unmet needs.
    In regard to your second part of the question relative to 
budget recommendations, you know I won't hesitate based on my 
job of looking at where coordination is best, where unmet needs 
need to be met within the budget structure that I operate on in 
the executive branch, I would not hesitate to make those needs 
known.
    I would add just parenthetically that I think it is 
important to build on some of the ad hoc budgetary work that 
Dr. Levin referred to. I think it is important for us to do a 
more formalistic evaluation so that we are able to succeed 
within a budget process in the executive branch. And I hope to 
be able to do that, and my job now is to pull those people 
together and do a more formalistic look at that question.
    Mrs. Maloney. There was some questions about Katrina, and I 
would like to ask in a general way if there were another 
September 11th, if we were to have another September 11th, 
would you recommend the patchwork of medical monitoring that we 
currently have or would you recommend a coordinated response 
that monitors and treats all who are affected?
    Dr. Howard. I would say no, I wouldn't recommend it. We are 
all sort of prisoners of our various systems that we operate 
on. I think the challenge that we have--and throughout CDC and 
HHS this is one that we are actively working on and that we 
actively believe in--we need coordination across partnerships, 
multiple levels of government, and with non-governmental 
organizations. So I would say that, no. This wouldn't be the 
route that I would take if we had to do this again.
    Mrs. Maloney. And a very important point that was raised by 
Drs. Kelly and Levin and others was the need for protocol and 
treatment to be developed, really learning from all the many 
different programs that were out there, trying to treat and 
trying to help, and do you see your department coming forward 
with a SARS-type of advisory that would go to the medical 
community on what to look for and how to treat those that have 
the World Trade Center cough?
    Dr. Howard. I say yes. And I was very impressed by the fact 
that we haven't done that yet. We need better communications in 
the medical community, and I hope to be able to work with Mount 
Sinai at the Fire Department, the FOH, to look at the 
protocols, to make that information known to any physician who 
may encounter a responder in his or her practice. That is 
critical communications information.
    Mrs. Maloney. And basically how long, not trying to tie you 
to any date, because I believe in your sincerity, how long do 
you think it will take to develop this protocol and get it out 
to the medical community? And I might add it is not just New 
York and Connecticut and New Jersey. We had people from 
California, divisions from Wisconsin. My office gets calls from 
all across the country of people who are sick. Now, I can refer 
them to your office. So this protocol is needed really not just 
for our region, but for the whole country, because many, many 
people rushed to respond and volunteered.
    Dr. Howard. Well, my answer to your question is much sooner 
than it has been done. I think we have an excellent protocol 
available at Mount Sinai. We are very proud at NIOSH that Mount 
Sinai is our partner in this.
    We need to get that information that has been developed 
over the last 4 years with excellent medical input, both from 
Mount Sinai as well as the New York City Fire Department, Dr. 
Kelly, Dr. Prezant, and others. We need to get that information 
out so that we are able to empower physicians who may see these 
responders, whether they be, as you say, in California, 
Wisconsin, or New York.
    Mrs. Maloney. As one who represents Mount Sinai, if you 
will allow me to be personal for a moment, I am very proud of 
their record in environmental health care. They pioneered in 
this years before anyone thought about environmental causes 
causing severe health problems, and they are still building on 
the environmental disaster that impacted so many of our 
residents and my neighbors and friends.
    I have great respect for all workers, and I am very 
disturbed at how the Federal employees were treated in the 
monitoring. They began the monitoring. They estimated 10,000 
were involved. They stopped after 400. I hear you are going to 
activate the response here, but as I understand your testimony, 
you report that Federal employees who worked alongside the 
heroes and heroines, the responders, and they also the FBI, the 
CIA, FEMA, all these Federal workers, they breathed in the same 
toxic air, and as I understand it, they are only eligible for a 
one-time screening; is that correct at this point?
    Dr. Howard. That is correct. But we hope to use the 
treatment program to allow them to enter. It is my intention 
that they would enter the treatment program so that they would 
be eligible for followup monitoring as well as treatment within 
that program so that gap is not created.
    Mrs. Maloney. Well, I am very, very glad to hear that they 
will be eligible for treatment and long-term monitoring. All of 
these people should be eligible. Those that rushed down there 
to help others, if they are volunteers, Red Cross, Federal, 
State, city should be helped in my opinion.
    Now, the one part of your testimony that does not--I would 
like you to elaborate on is the Health Registry. You testify 
that the Registry has conducted more than 70,000 interviews, 
and this includes area workers, residents, and school children. 
And this group of exposed individuals, according to your 
testimony, are having similar health problems as the September 
11th responders. But this group of people are barred from any 
of the federally funded medical monitoring and treatment 
programs; is that correct?
    Dr. Howard. It is largely true. I believe out of the 70,000 
registrants, about 30,000 are in the responder category, if you 
will, so that they would be eligible for screening and 
monitoring. But that would leave about 40,000 in the category 
of residents of lower Manhattan that did not respond, nor were 
sent to the site.
    Mrs. Maloney. OK. Last, because my colleague and great 
leader on this, Mr. Fossella, has a series of questions, but 
can you explain to me why these individuals should be left out? 
They were exposed to toxins. Our government said it was safe. 
These are people who would lose their job if they didn't return 
to work. The SEC offices are there. The FEMA offices are there. 
These are Federal workers that had to return to their jobs and 
others. Why should they be left out of the monitoring and 
treatment?
    Dr. Howard. I can say that I don't see that reason either 
other than if you go back to the origin of how these programs 
were structured in 2002 we as an occupational safety and health 
agency, with statutory responsibility for workers receiving 
money from FEMA, we had limitations ourselves on monitoring, on 
screening programs, so it is unsatisfactory. I realize that, 
but I hope that as we work on the issue of the Registry, and 
they are just beginning their second interview schedule, I am 
hoping we can use the data from the registry, based on their 
subgrouping of school children and residents and others, I am 
hoping that we will get that positive information that we need 
out of the Registry to build on that need that you have 
identified.
    Mrs. Maloney. Thank you so much for your testimony, and as 
one who was there on September 12th, I was in meetings with the 
State and city government where the estimates of the dead were 
25,000, 30,000. It was a time of great crisis and because of 
heroic actions by many, we lost 3,000. But those early days we 
had no feel for how many people had perished, and it was truly 
a trying experience for all of us.
    So I thank you for all of your help, and I yield back.
    Dr. Howard. Thank you.
    Mr. Shays. I thank the gentlelady, and this time the Chair 
would recognize Mr. Fossella.
    Mr. Fossella. Thank you, Mr. Chairman. Dr. Howard, thank 
you for being here and thank you for your assignment of your 
duties you are about to assume in addition to what you have 
done already. I appreciate it.
    And just an overall observation, and it bears again to be 
underscored. September 11th was, in a way, an act of war in 
this country. Seventy-one thousand people, as you say, have 
gone through the Registry, which is when you think about it in 
perspective, it is about the size of if not larger than many 
cities in this country. And, you know I guess by the way of 
example, Pearl Harbor, 65 or so years ago, if somebody is a 
survivor of Pearl Harbor, they are treated with reverence and I 
think every ounce of the Federal Government is there to help an 
individual who survived Pearl Harbor 60 plus years later.
    And you know and you have been listening to the testimony 
of the doctors here before you that we are looking at another 
20, 30, if not more years ahead of us. Many of the people who 
responded were in their 20's and 30's, so they weren't people 
in their 50's or 60's or 70's. They were in their 20's or 30's. 
The three individuals who died from apparently exposure to 
September 11th were very young.
    And it just strikes us as I hope what you take back because 
any responsibility borne by the Federal Government, any 
obligations that we believe--at least I believe--we should have 
to those who responded is going to far outlive us in your 
professional capacity and my professional capacity.
    So the sooner we get our arms around the entire situation, 
the sooner we work--as I think you have just said, you want to 
work with the Mount Sinais, the fire department, the non-
governmental agencies, organizations--the better, because this 
is an obligation that is going to have to exist for decades to 
come.
    And it is not going to be fair to those individuals to have 
a--I believe a--in the words that I guess of my colleague, Mrs. 
Maloney, a legislative undertaking every year to be lobbying 
for funding.
    It should be coming from I believe almost it was part of 
the executive budget within HHS to step forward and say this is 
going to be our obligation with respect to these individuals. 
And it is going to be an obligation that is going to be, you 
know, for a time to come.
    And I say that just as a general observation because I sure 
would--hopefully for the next several weeks and several months, 
as you continue to put your arms around this issue, which is a 
heavy undertaking, and I just hope you keep that in mind.
    With respect to some of the things that I have heard 
regarding NIOSH's partnering with--NIOSH I should say 
partnering with the Red Cross to establish in a new outpatient 
treatment program that will serve as an extension of the 
existing WTC Medical Monitoring Program, this is a nice effort. 
I was just curious was--does this mean that NIOSH's point on 
directing some of the $75 million recently secured to the Red 
Cross or is this a separate?
    Dr. Howard. No.
    Mr. Fossella. No?
    Dr. Howard. I think it is a misstatement in our testimony. 
What we meant to say was we are meeting with the Red Cross----
    Mr. Fossella. OK.
    Dr. Howard [continuing]. Trying to look at their program 
and see what they have learned from running a treatment 
program, the lessons they have learned and how they may be 
applied to our structuring of a treatment program. But our 
money, the $75 million to the extent for the treatment program 
would go directly to--through our extramural grant program to 
the New York Fire Department as well as Mount Sinai.
    Mr. Fossella. Well, that is good. That is what I was hoping 
to hear.
    In discussing that money, I think in the testimony you also 
say you increased costs ``resulting from the recent expansion 
of the protocol to include a comprehensive mental health 
assessment, and the increase in outreach efforts necessary to 
inform participants of the services provided by the program may 
make it necessary to use a portion of these funds to supplement 
the World Trade Center Medical Monitoring Program. The funds, 
initially appropriated for this program in 2003, are available 
through 2009.''
    Out of curiosity, what portion of the newly appropriated 
funding do you think should be used for such initiatives?
    Dr. Howard. Our understanding right now that would probably 
be 10 percent or less. It is a small amount of funding. It is 
largely, as we point out in the testimony, for cost increases 
associated with a robust mental health screening. We have 
encouraged some debt on that side of the program. But it would 
be a small portion of the $75 million. The bulk of the $75 
million would go to treatment.
    Mr. Fossella. OK. And finally, we are seeing as a Nation 
involved in the last several years, especially in responding 
and being prepared for disasters of different forms, natural or 
obviously in this case September 11th, do you see, as I asked 
before the doctors anything legislatively that Congress needs 
to be doing that would allow you to better do your job, either 
now or prospectively?
    Dr. Howard. Well, I believe that throughout the last couple 
years, the Congress and the Department of Health and Human 
Services, through our office of Public Health and Emergency 
Preparedness, the Centers for Disease Control, etc., have 
worked hard on this issue to look at the needs as we prepare 
for pandemic flu, for instance.
    I think with regard to this program, it is important that 
we look, as I said, to Representative Maloney--it is important 
that we in the program, working with our partners, develop the 
justification for others to act on, both within my department 
as well as the appropriators in Congress.
    So hopefully, my job will be to make sure that we have that 
justification done so that we can tell our department, through 
our processes and the appropriators, here is what we need to 
make this program work better.
    Mr. Fossella. OK. Well, that sort of concludes it, and let 
me just again thank you, Dr. Howard. I know you are very well 
respected, as I mentioned earlier. We have met with Secretary 
Levitt before--very well respected both inside and outside of 
government. You know, but the injuries, the illnesses are 
staggering. Dr. Kelly talked about four to five times the 
personnel who have had to leave the fire department due to 
permanent lung disability. A number of pulmonary problems. 
12,000 individuals who have to seek mental health already. So 
these are staggering numbers. You have a tough task ahead of 
you, and I just hope that you keep us in mind to the degree 
that we can help, and help those who truly need it.
    So thank you very much.
    Dr. Howard. Thank you.
    Mr. Shays. Dr. Howard, we are going to complete. I want to 
have professional staff, Kristina Fiorentino, just ask you a 
question so we can have it for the record.
    Ms. Fiorentino. Dr. Howard, what steps have been taken to 
ensure health monitoring programs are included in disaster 
planning?
    Dr. Howard. Disaster planning in the Department of Health 
and Human Services?
    Ms. Fiorentino. Right.
    Dr. Howard. Yes. I would say that we work constantly on 
this issue, and we have talked this afternoon about the Katrina 
response. Our department, the agency I work for, the Centers 
for Disease Control and Prevention, was very much involved. We 
at NIOSH were involved and actually are doing a health hazard 
evaluation study on New York--on New Orleans Police Department 
individuals.
    So we are actively and I know this is an issue for this 
committee as well as for many others, we are actively looking 
at the lessons that we have learned from New York to apply them 
to Katrina, the lessons we are learning from Katrina to apply 
them to the future. So I would say that we are always trying to 
sharpen our tools for any other future disaster planning.
    Ms. Fiorentino. And is there a recommended protocol for 
health monitoring after a terrorist event? Are we just doing a 
wait and see approach and then tailoring it after an event 
happens?
    Dr. Howard. Well, I hope not. I think that is really where 
we have to look at the lessons that we have learned in New 
York, because I think that is really for disaster planning in 
terms of health monitoring for these large events that is a 
very important issue.
    We at NIOSH commissioned 3 reports that RAND Corp. did for 
us, and I would be happy to provide the committee copies of 
those three reports that really get at much of the detail of 
this issue.
    So certainly, we at NIOSH, we at CDC, we at HHS think this 
is an extremely important issue, so we hope to be able to--and 
it is difficult because the exposures differ depending on the 
disaster. The exposures are a little different in New York than 
they were in New Orleans, so one has to be able to modulate 
this.
    But we certainly hope to be able to have a health 
monitoring outcome, if you will, so that we can quickly adapt 
to whatever situation is out there.
    As you may know, I will just tell the subcommittee about 
the development of the Agency for Toxic Substances Disease 
Registry's Rapid Response Registry Survey Form, which is 
designed to be used quickly in these types of events. So we are 
constantly trying to fill our tool bag with these sorts of 
things.
    Ms. Fiorentino. Thank you very much.
    Mr. Shays. Dr. Howard, just quickly. Should it be you and 
your office that ultimately takes control of a site like this? 
Which, first, should it be Federal, State, and local within the 
Federal? Who would be the one to basically stop workers from 
going in there?
    It strikes me that it would be you that would have that 
responsibility?
    Dr. Howard. Well, I actually think probably not. These 
sites are quite complex. This site was owned by the Port 
Authority. It was in the city of New York, in the State of New 
York. Under the Occupational Safety and Health Act, New York 
has a program for public sector workers, but the Federal 
Occupational Safety and Health Administration is responsible 
for other workers, so it is a complex matrix, and I would defer 
to the Occupational Safety and Health Administration on the 
issue with regard to who has jurisdiction over the workers.
    Mr. Shays. Yes. It just strikes me, though, that if you are 
going to design a protocol, we had better know who is in 
charge.
    Dr. Howard. Yes. For the health monitoring issues, there is 
no doubt about that.
    Mr. Shays. No doubt about what?
    Dr. Howard. There is no doubt that our department, Health 
and Human Services, CDC, and NIOSH that is the job that we do 
to make sure that the health of the workers in terms of the 
screening programs, the monitoring programs. OSHA does not do 
that. They do the immediate protection of the employees.
    Mr. Shays. Well, then did you all drop the ball in not 
taking charge of this early on?
    Dr. Howard. Well, we don't have that jurisdiction. We are a 
research agency at NIOSH. OSHA is the enforcement agency for 
Occupational Safety and Health.
    Mr. Shays. Right. So I am sorry--that OSHA should have 
taken charge. I said it incorrectly, so you answered----
    Dr. Howard. I am sorry.
    Mr. Shays. No. You don't need to apologize. I need to 
apologize to you. Not you, but should it have been OSHA that 
should have been----
    Dr. Howard. I would defer that answer to the Occupational 
Safety and Health Administration.
    Mr. Shays. In other words, don't put you in the spot of 
having to answer the question?
    Dr. Howard. I have a big enough job as it is.
    Mr. Shays. OK. Fair enough. I won't make your job more 
difficult.
    All right. Thank you, Dr. Howard. Is there anything you 
want to put on the record before we get to a third panel that 
we will be having of people I have never met before and have no 
idea what they are going to say?
    Dr. Howard. No, sir. Thank you.
    Mr. Shays. You might want to stay and listen. Thank you.
    We are going to call our third panel. We have done this 
once before in my 19 years, and this may be the last time I 
ever do it. We have Ms. Micki Siegel de Hernandez, 
Communications Workers of America; Sister Ms. Lee Clarke, 
American Federation of State County and Municipal Employees, 
District Council 37; Mr. John Ramanowich, who is New York City 
Department of Design and Construction; Mr. Michael Kenny, Local 
375, District Council 37; and Mr. Charles Kaczorowski.
    Now, let me explain the rules. We never have people here 
who aren't sworn in, so you will be sworn in. Being sworn in 
means if you have not told the truth, you could be prosecuted. 
If you are saying something to which you just made a mistake, 
that is one issue. But if you knowingly say something false, 
then you are breaking your oath. And let me say that I will 
give each of you 2 minutes to make any comment you would like 
to make, and so I am going to ask you to stand up, and I will 
swear you each in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative. It is frankly nice to have you all here. I 
am going to in the order I called you--Ms. Micki Siegel de 
Hernandez.
    Thank you. You can go first. There is a button on there 
that you hit.
    Ms. de Hernandez. Got it.
    Mr. Shays. Maybe describe who you are and why you want to 
testify before you start.
    Ms. de Hernandez. Sure. My name is Micki Siegel de 
Hernandez, and I run the Health and Safety Program for the 
Communications Workers of America in New York in District 1. I 
also sit on the Executive Committee for the Medical Monitoring 
Program and was also the labor liaison on the EPA Expert 
Technical Review Panel.
    Mr. Shays. OK.

STATEMENTS OF MICKI SIEGEL DE HERNANDEZ, COMMUNICATIONS WORKERS 
  OF AMERICA, DISTRICT 1, NEW YORK CITY; LEE CLARKE, AMERICAN 
 FEDERATION OF STATE COUNTY AND MUNICIPAL EMPLOYEES, DISTRICT 
   COUNCIL 37, NEW YORK CITY; JOHN ROMANOWICH, NEW YORK CITY 
  DEPARTMENT OF DESIGN AND CONSTRUCTION; MICHAEL KENNY, LOCAL 
     375, DISTRICT COUNCIL 37, NEW YORK CITY; AND CHARLES 
   KACZOROWSKI, LOCAL 375, DISTRICT COUNCIL 37, NEW YORK CITY

             STATEMENT OF MICKI SIEGEL DE HERNANDEZ

    Ms. de Hernandez. I have been struck by so many things 
while the hearing was going on, and I was particularly struck 
by your question, Congressman Shays, as you looked at the 
picture with amazement on your face and asked the question of 
Ron Vega how could nobody have stopped what was going on. How 
come people weren't protected?
    We are still asking that question. And there are still 
huge--there aren't gaps in the response. There aren't gaps in 
what has happened. There are huge chasms that still remain, and 
until we fix those problems, at the response of September 11th 
the rebuilding after September 11th, there will be no lessons 
learned. We will continue to make the same mistakes.
    There were a couple of comments made about OSHA and whose 
responsibility this was. We do believe that it was the primary 
responsibility of the Federal Government, the National Response 
Plan. There were parts of that Response Plan, many parts, that 
were not followed, but what has happened onsite and since 
September 11th is I think what you just saw: There were 
different agencies pointing different fingers at each other 
every time we talked to them.
    OSHA was onsite, and they decided that they would not be 
onsite and do compliance with the standards that they had. They 
were going to be there just to help----
    Mr. Shays. Is it possible they did that because it was such 
a dirty site that they were afraid that they wouldn't be 
allowed to allow anything to happen; is that?
    Ms. de Hernandez. I can't speak for what their reasons 
were.
    Mr. Shays. OK.
    Ms. de Hernandez. But they are now deciding. They are 
talking about doing that at every future response.
    Mr. Shays. Right. OK.
    Ms. de Hernandez. But part of the problem with OSHA taking 
control over all these situations that there are gaps in the 
laws that exist. There aren't laws to cover a situation like 
September 11th that would protect workers, that would protect 
the community----
    Mr. Shays. OK. Let me do this.
    Ms. de Hernandez. Sure.
    Mr. Shays. Your contribution is outstanding. Speak to 
Kristine afterwards and walk through some of what you think 
needs to happen. We might be able to come back to you, but let 
me stick with the 2-minute rule for now, and I gather you are 
Ms. Lee Clarke.

                    STATEMENT OF LEE CLARKE

    Ms. Clarke. Yes. Thank you, Congressman. Thank you for 
letting us address you.
    I too was struck by your question, and the answer that you 
did not get. Let me say I am from District Council 37 of the 
American Federation of State, County, and Municipal Employees.
    We represent 120,000 New York City government workers in 
New York City. We had thousands of our members down there from 
day one to the day Ground Zero was no longer a rescue or 
recovery area.
    Micki talked about OSHA not enforcing the law. It was not 
only OSHA. In New York State, we have the Public Employee 
Occupational Safety and Health Bureau that abdicated their 
responsibility to Federal OSHA, and it was a domino effect. 
Everybody threw their hands up, and nobody protected the 
workers.
    Early on and about a week after the Trade Center fell, we 
sat down as union representatives with the city of New York to 
talk to them about documenting the presence of our members down 
there, providing medical monitoring for them, providing medical 
treatment for them. Dr. Steve Levin from Mount Sinai 
accompanied me to those meetings, and to this day we still do 
not have treatment for city workers.
    I have a tremendous amount of respect for Dr. Kelly and the 
fire department, and Dr. Prezant. They are running a fabulous 
program; so is Mount Sinai and the other clinics.
    However, the city workers that go to the Mount Sinai 
program have to go on their own time. When the Fire Department 
workers go on work time, that is important to point out.
    As Ron Vega said to you, point blank, I don't have any more 
time to take from work. This is costing me a lot of money out 
of my pocket. We have thousands of city workers who are not 
getting treated.
    This is an important point to raise: why? When we talk 
about the $75 million and how it is being divvied up or who is 
holding their hand out for some of that money, I am concerned 
about the Registry also standing in that line.
    I don't want to see--the Registry serves some purpose, and 
not a good scientific purpose in my mind.
    But I don't want to see money go to the Registry and not 
going to treatment of these workers who are sitting here today. 
And these are my members from the Department of Design and 
Construction.
    Mr. Shays. Thank you.
    Ms. Clarke. Who could give you first hand information of 
their problems with the system.
    Mr. Shays. Well, let me go to Mr. John Romanowich.

                  STATEMENT OF JOHN ROMANOWICH

    Mr. Romanowich. Well, good afternoon.
    Mr. Shays. So you are the guy that started this. You rose 
your hand in a hearing? It has never been done before.
    Mr. Romanowich. I have been held accountable for a lot of 
things.
    I think I do have the answer. I can't address the medical 
questions that the other experts have addressed, but I can 
answer the question that you posed to Mr. Vega. How was he and 
all of us allowed to dive into that mess? And the answer is 
that the business of America is business, and that was not just 
the New York financial center. That was the financial center of 
the world. Because of all of our efforts, the police to secure 
the site, the fire department to put out the fires, the 
sanitation, the transportation, DDC to organize all of the 
other people, business was restored to lower Manhattan and to 
the rest of the world.
    Mr. Shays. Right.
    Mr. Romanowich. The stock market reopened within 10 days. 
Telephone service initially was knocked out on all of lower 
Manhattan. That was restored block by block, bit by bit. A lot 
of people don't realize that the Federal Reserve Bank is only 3 
blocks from that site, just across Broadway and down the hill 
is the New York Branch of the Federal Reserve Bank.
    Something like $200 billion of gold bullion was safely and 
orderly removed from the vaults below the World Trade Center. A 
lot of people don't even know that, but for 24 hours armored 
trucks had a steady stream of gold bullion leaving that place.
    They were able to leave because we got the streets cleared. 
They were able to leave because the police department held back 
with the National Guard--held back the onlookers. It was all 
organized by DDC. We orchestrated everything there. The police 
department has credit coming. The fire department certainly has 
credit coming. The sanitation, the transportation people, 
everybody.
    There was urgency in that the entire site was in danger of 
flooding by the New York Bay, which was just a couple of 
hundred feet to the west--the Hudson River and all of the 
Atlantic Ocean.
    That site, if it had flooded, would have flooded the entire 
subway system of New York and probably you would still be 
pumping it out today, not just pumping out New Orleans, but 
pumping out the entire subway of New York.
    We stopped the bleeding. We restored the breath. We cleaned 
the wound. We pulled the edges together. Day by day, that site 
grew smaller. Streets were opened and put back into service. 
The whole thing was shrunk down, shrunk down. Life continued. 
Life restarted and continued around it, until eventually you 
have a nice clean wound that anyone could look at.
    Mr. Shays. So the question is could we have done that and 
protected the workers at the same time?
    Mr. Romanowich. No.
    Mr. Shays. No?
    Mr. Romanowich. No, because the time someone had developed 
the proper training, got all the protocols in order, the subway 
system may have been flooded. There was a real hustle in the 
initial days to stop that site from----
    Mr. Shays. OK. I am going to buy into the first week, the 
second week, the third week, the fourth week. There was a 
point, and what you said makes me very proud of what took 
place, because it is pretty extraordinary, and it is wonderful 
to have you put on the record these urgencies. But there was a 
point, and at the very least, every worker should have been, 
you know, someone should have looked in their face, held their 
head and said, you may become sick doing this. Do you volunteer 
to do this? So there are things we could have done. Let me get 
to the next person.
    Mr. Romanowich. Yes. As individuals, we were aware of the 
dangers. But just like the people who walked into Chernobyl to 
secure that atomic energy disaster, they sacrificed their lives 
for their country, we threw ourselves on the fire.
    Mr. Shays. Right. You know, I think you did in one sense. 
But there was a point where they left Chernobyl the way it was, 
and didn't ask people to go in after everybody was dead and the 
emergency. For 10 months, this happened.
    Mr. Romanowich. As the urgency lessened there, the training 
increased.
    Mr. Shays. Yes.
    Mr. Romanowich. There was a definite relationship.
    Mr. Shays. Let me hear from somebody--I think what you have 
made is on the record, and it is important to be on the record. 
Let me get to the next. And the next person is Mr. Mickey 
Kennedy--Michael Kennedy.

                   STATEMENT OF MICHAEL KENNY

    Mr. Kenny. Thank you. I am Mike Kenny.
    Mr. Shays. I am going to have you start over again. Hold 
it.
    Mr. Kenny. OK. Hello. I am Mike Kenny, and thank you for 
having me down here.
    Mr. Shays. Nice to have you here, sir.
    Mr. Kenny. And it is an unexpected surprise, but a good 
one.
    I am Local 375, Civil Service Technical Field, health and 
safety officer, but I also spent 7 months at the site. 
Actually, it was 6 weeks before I was tested for PPE, because 
that is how crazy it was down there, to find the time to get. 
So until after 6 weeks went by, I really didn't have the right 
PPE, because I was taking whatever I could find when I went 
down there. And then I was tested, fitted, and I knew which one 
to take.
    After 7 months being at the site, I was injured. I broke my 
collar bone, and I left the site. And to go to through the 
workers' comp system and to try to get treatment with an injury 
from the site and to be contested from the city at the same 
time was very derogatory, because once you filled out the 
paperwork saying you were hurt at the site, and you go to the 
doctor, the doctor wouldn't take you until you got a workers' 
comp number from the city. And I was out of work for 40 weeks.
    Mr. Shays. Wow.
    Mr. Kenny. And when I went back to work, I was so 
depressed, I couldn't even walk up a flight of steps at that 
time.
    There was nothing there. Mental health was through Project 
Liberty. I was able to find mental health. I went through the 
mental health division, and then after that Red Cross gave me a 
grant to go to more mental help. And I am still going to mental 
help from what happened down at the site to me.
    But even after going through the workers' comp, 3 years 
before my case was finally--we went right to the day of trial 
when the city backed up and said OK you were injured at the 
city, they gave me back--out of 200 days I was out, they gave 
me back 80 days. That is all they gave me back, and they said 
thank you, you know.
    I am in the treatment program right now at Mount Sinai. I 
have major health concerns that I am actively going to. But I 
have missed deadlines to reapply for mental health workers' 
comp, because there is only a 2-year window. I never thought I 
would still be in the situation I am in now. I have many 
members come to me, and they don't want to take on the fight 
with the city, because of the way you are handled. If you--you 
try to go to work every day, and then you try to go--I go to 
counseling. I give up one Saturday every 2 weeks with family to 
go into the city for counseling.
    Mr. Shays. Thank you. Thank you for your testimony. Mr. 
Kaczorowski.

                STATEMENT OF CHARLIE KACZOROWSKI

    Mr. Kaczorowski. My name is Charlie Kaczorowski. I am 
District 37, Local 375. I was there the morning of September 
11th, and I was there for the next 10 months as the site 
supervisor to the midnight to 8 a.m. shift.
    Mostly I am going to speak about my concerns for my fellow 
co-workers, Ron and Mike and John and Marvin back there. 
Thirty-seven years ago, I spent a tour in Vietnam. I was 
exposed to Agent Orange. In 1980, I had a liver two and half 
times the size and inflamed and enlarged. The doctors figured 
this came from Agent Orange.
    Like Ron Vega said earlier, it depends where you stood on 
the site, where the wind was blowing. It was night in December, 
I spent 3 hours with two battalion chiefs, where we were trying 
to watch the firemen go down to the boys to look for body parts 
or victims, where the iron workers were cutting down the sticks 
of the Trade Center facade. When the sticks fell, it caused a 
ripple effect across the site, and the chiefs were concerned 
about losing more men. So in order to be in contact with the 
chiefs and 10/10 and the iron workers, I had my mask off for 
that long time, and during those 3 hours, the clouds were 
coming up out of the ground from the fumes, and it ripples. And 
3 months later on, I had the ``World Trade Center cough.''
    Today, I now have--my wife says I don't sneeze like I did 
before September 11th. It is loud and it is unbelievable. I 
have rashes now on my arms. I have a loss of breathing. I get 
tired quickly, and my concerns are of my fellow co-workers 
about what they are going through right now for what I 
experienced 37 years ago.
    Mr. Shays. Thank you very much. Let me just turn to Mrs. 
Maloney for any comment or questions you might want to ask.
    Mrs. Maloney. Well, first, I would like to thank the 
chairman really for holding the only three Federal hearings on 
the health needs of the Federal workers and for inviting the 
workers and union leaders to come to the table. I think that is 
an extraordinary expression of concern. It is the only time I 
have ever seen that happen since I have been in Congress, to 
bring up a group of people.
    Charlie, what is Local 375? What was your job down at the 
site?
    Mr. Kaczorowski. I was a site supervisor.
    Mrs. Maloney. You were a site supervisor for what? For what 
agency?
    Mr. Kaczorowski. DDC.
    Mrs. Maloney. DDC.
    Mr. Kaczorowski. I am construction project manager.
    Mrs. Maloney. Construction project. I want to say that your 
testimony and John's and Michael Kenny's I think that there are 
so many stories of unsung heroes and heroines, and the one that 
you shared of coming down there and securing the site, of 
stopping the flooding, of getting the treasure of the United 
States removed, there are so many people who did extraordinary 
things with the police and the fire, but not everybody knows 
the story of what the construction workers did and the iron 
workers and all of you. And I think that one thing I would like 
to propose with my colleague, Christopher Shays, and we have 
had a lot of successes together legislatively. We passed the 
intelligence reform bill, which I think is probably the most 
important bill that has come before this Congress since I have 
been elected to office. It will hopefully make all of us safer 
with the sharing of intelligence.
    I would like to propose that we put forward a piece of 
legislation, not just on rotating workers, which we are going 
to have to do when we talk to Micki and to Lee about that 
aspect of the holes in the whole OSHA deal.
    But I would like to propose that we fund an oral history 
now that we have people still alive that is part of the Library 
of Congress that shares the incredible stories of the men and 
women that were at Ground Zero. And what has struck me so much 
from Mr. Vega's testimony and John's and Michael's and 
Charlie's is that you know that you were making yourself when 
you went down there. I knew I was making myself sick when I was 
down there. Yet, you felt like this was a responsibility to 
protect our government, protect our people, and to really 
respond and help people.
    And what I found the most astonishing really and made the 
biggest impression on me--and I hear September 11th stories all 
the time, and your stories today, to me, were very moving--is 
that what is the most irritating to you is the way that the 
government response has treated you. How dare they say to you 
you were not down on the site. How dare they say to me you were 
not there trying to keep the subways from being flooded. How 
dare they say to you that you weren't there when the Towers 
fell, when the iron workers brought back the skeletons down and 
the fumes came up. How dare they question your integrity that 
you were there when you selflessly went down there.
    And what I hear is such an outrage and disappointment 
really from workers that the Federal Government did not--and 
the State and the city--did not respect their work and respect 
their valiant actions really for the whole country. That seems 
to be more disturbing to people than anything else. I talked to 
one guy, he said he found the flag. He has a picture of 
himself--the flag that went all over the country and all over 
the United States and Europe and Iraq, and they questioned that 
he was on the site.
    We have people who have testified they have lost their 
limbs, and they question they were on the site.
    And so I hope that with this new appointment, which I 
consider a real milestone--I am absolutely thrilled with this 
appointment--that we have someone who can listen to their 
voices, hear their concern, and respond hopefully to it.
    But, as always, the response of the people who lived 
through it--the union representatives, the workers, the police, 
the fire, the volunteers, the residents--I think we should have 
an oral history that we begin now before we lose more of the 
people that were involved with it that hopefully we learn from 
their experiences. And I say to you and me, Chris, how dare we 
not have a policy that workers are rotated in and off after the 
first crisis week or two. I mean that should have been a given 
that we should want to get people in and out and into fresh air 
for their health care.
    I wanted to thank Charlie for your service to our Nation in 
Vietnam.
    Mr. Kaczorowski. Thank you.
    Mrs. Maloney. I feel that the Vietnamese war heroes were 
not treated with the proper respect by our country, and I 
really vow to you and hopefully with the help of Chris and Vito 
Fossella that we make sure that our heroes of September 11th 
are treated with the respect that they deserve starting with 
absolute adequate, unquestioned health care. You were there for 
us. We need to be there for you. End of story.
    Mr. Kaczorowski. Thank you.
    Mrs. Maloney. And I say it has to be a city and State and 
Federal responsibility. I am surprised at the city's response 
that I am hearing from you today. Thank you.
    Mr. Kaczorowski. Thank you.
    Mr. Shays. Thank you all.
    Mr. Kaczorowski. Thank you.
    Ms. de Hernandez. Thank you.
    Mr. Shays. Thank you all very much and just for the record, 
we are having these hearings at the request of Mrs. Maloney. 
She is the one who asked the committee to have these hearings, 
and so I thank the gentlelady for making sure that we focus on 
this issue, and we will continue. Thank you very much. I 
appreciate all of your testimony.
    Ms. de Hernandez. Thank you, Mr. Chairman. Thank you, 
Congresswoman Maloney.
    [Whereupon, at 5:18 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
